Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604- 8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-
8932. Ideas and requests can also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AAA               Army Audit Agency
AFAA              Air Force Audit Agency
CENTCOM           U.S. Central Command
CERP              Commanders’ Emergency Response Program
DAU               Defense Acquisition University
DCAA              Defense Contract Audit Agency
DCMA              Defense Contract Management Agency
DFAS              Defense Finance and Accounting Service
DoD OIG           DoD Office of Inspector General
GAO               U.S. Government Accountability Office
GWOT              Global War on Terror
LOGCAP            Logistics Civil Augmentation Program
OEF               Operation Enduring Freedom
OIF               Operation Iraqi Freedom
OUSD(AT&L)        Office of the Under Secretary of Defense for Acquisition, Technology,
                      and Logistics
OUSD(C)           Office of the Under Secretary of Defense (Comptroller)
SIGIR             Special Inspector General for Iraq Reconstruction
SPOT              Synchronized Predeployment and Operational Tracker
UCMJ              Uniform Code of Military Justice
                               INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704


                                                                            July 18, 2008
MEMORANDUM FOR DISTRIBUTION:




SUBJECT: Report on Challenges Impacting Operations Iraqi Freedom and Enduring
         Freedom Reported by Major Oversight Organizations Beginning FY 2003
         through FY 2007 (Report No. D-2008-086)


We are providing this report for your information and use. We did not issue a draft report
because this report summarizes material that was already published. This report contains
no recommendations; therefore, no written response to this report is required.

Questions should be directed to Mr. Paul Granetto at (703) 604-8905 or
Mr. J.T. "Mickey" McDermott at (703) 604-8903. The team members are listed inside
the back cover.




                                           Mary L. Ugone
                                       Deputy Inspector General
                                            for Auditing
DISTRIBUTION:
SECRETARY OF DEFENSE
DEPUTY SECRETARY OF DEFENSE
SECRETARY OF THE ARMY
SECRETARY OF THE NAVY
SECRETARY OF THE AIR FORCE
UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
LOGISTICS
   DIRECTOR, DEFENSE PROCUREMENT AND ACQUISITION POLICY
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
   OFFICER
COMMANDER, U.S. CENTRAL COMMAND
   COMMANDER, MULTI-NATIONAL FORCE-IRAQ
   COMMANDER, MULTI-NATIONAL SECURITY TRANSITION COMMAND-IRAQ
   COMMANDER, JOINT CONTRACTING COMMAND-IRAQ/AFGHANISTAN
COMMANDER, COMBINED JOINT TASK FORCE-101
COMMANDER, COMBINED SECURITY TRANSITION COMMAND-AFGHANISTAN
CHIEF, NATIONAL GUARD BUREAU
ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION
   INTEGRATION /DOD CIO
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
DIRECTOR, JOINT STAFF
DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
AUDITOR GENERAL, DEPARTMENT OF THE NAVY
AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE
SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION
OFFICE OF MANAGEMENT AND BUDGET
GOVERNMENT ACCOUNTABILITY OFFICE
                           D-2008-086 (Project No. D2007-D000XA-0249.000)
                                          July 18, 2008

               Results in Brief: Challenges Impacting
               Operations Iraqi Freedom and Enduring Freedom
               Reported by Major Oversight Organizations
               Beginning FY 2003 through FY 2007

What We Did                                              DoD Action Taken
We summarized 302 Operations Enduring and                DoD took action to resolve Operations Enduring
Iraqi Freedom related audit reports and                  and Iraqi Freedom Contract Management,
testimonies issued by the Defense oversight              Logistics, and Financial Management, and
community and GAO beginning FY 2003                      “Other” challenges reported by the oversight
through FY 2007. Based on the content of the             organizations.
reports and testimonies, we categorized the                 • From FY 2003 through FY 2007, the
reports and testimonies into four areas:                        Defense oversight community and GAO
    • Contract Management                                       issued 983 recommendations to improve
    • Logistics                                                 DoD operations in Operations Enduring
    • Financial Management                                      and Iraqi Freedom.
    • Other                                                 • DoD has resolved most of the
                                                                recommendations as of September 30,
Within the four categories, we retrospectively                  2007. We plan to report on progress
identified systemic challenges. We then                         made after September 30, 2007, in a
prospectively summarized corrective actions                     future report.
taken and still pending, as well as other
management initiatives taken or underway,                DoD Ongoing Initiatives
within the identified functional areas that impact
DoD operations supporting Operations                     Continuing action is underway to support
Enduring and Iraqi Freedom.                              various initiatives within DoD to address the
                                                         challenges DoD faces for operations supporting
What We Found                                            Operations Enduring and Iraqi Freedom. For
                                                         example, DoD has:
Over the course of conducting Operations
Enduring and Iraqi Freedom, DoD experienced,                 • Increased oversight and accountability
at times, significant and recurring challenges in                over deployed contractors and over
the following functional areas:                                  assessing the needs of its contracting
                                                                 workforce in expeditionary operations;
     • Contract Management: Contract                         • Established an Executive Director to
        Oversight and Resource Limitations                       provide program management oversight
     • Logistics: Asset Accountability,                          over contractor logistical support; and
        Visibility, and Equipping the Force                  • Deployed financial support teams to
     • Financial Management: Accuracy of                         assist the theater Commanders
        Cost Reporting and Accountability                        accountability over funds.
Further, there were challenges that were                 The DoD oversight community has restructured
common in more than one of the functional                its workforce models and developed a
areas. Specifically, shortfalls in DoD training          comprehensive oversight plan for Operations
and policy and procedures were challenges in             Enduring and Iraqi Freedom which includes
more than one functional area.                           logistical support, financial management, and
                                                         contract administration.


                                                     i
Table of Contents

Results in Brief                                                            i

Introduction

       Objectives                                                           1
       Background                                                           1

Chapter 1. Systemic Challenges During Wartime Contingency Operations for
Contract Management, Logistics, and Financial Management                    5

Chapter 2. Responsive Actions Taken by Management to Address
Recommendations                                                            16

Chapter 3. Initiatives Taken by DoD to Address Contract Management,
Logistics, and Financial Management Challenges                             18

Appendices

       A. Scope and Methodology                                            36
       B. OEF and OIF Reports and Testimonies FY 2003 through FY 2007      38
       C. Definitions Used for Categorization of OEF and OIF Reports and
             Testimonies FY 2003 through FY 2007                           59
Introduction
Objectives
The overall audit objective was to summarize Operation Enduring Freedom (OEF) and
Operation Iraqi Freedom (OIF) related audit reports and testimonies issued beginning
FY 2003 through FY 2007 by the Defense oversight community. This community
includes the DoD Office of Inspector General (DoD OIG), the Army Audit Agency
(AAA), the Naval Audit Service, the Air Force Audit Agency (AFAA), the Special
Inspector General for Iraq Reconstruction (SIGIR) and the Government Accountability
Office (GAO). Retrospectively, we identified systemic challenges and prospectively,
reported on the corrective actions taken and still pending as well as other management
initiatives within the identified functional areas to improve DoD operations. See
Appendix A for a discussion of the scope and methodology and Appendix B for the OEF
and OIF related reports and testimonies we included in developing this summary. See
Appendix C for definitions used to categorize OEF and OIF related report information.

Background
Global War on Terror
The United States is engaged in a comprehensive effort to protect and defend the
homeland and defeat terrorism. After the terrorist attacks of September 11, 2001,
military operations began Operation Enduring Freedom, which takes place principally in
and around Afghanistan, but also covers operations in the Horn of Africa, the Philippines,
and elsewhere. In 2003, DoD began Operation Iraqi Freedom, which takes place in and
around Iraq. According to GAO estimates, as of December 2007, DoD total cumulative
reported obligations for the Global War on Terror (GWOT) were about $527 billion, of
which about $406.2 billion is for operations for Operation Iraqi Freedom, and about
$92.9 billion is for operations for Operation Enduring Freedom.1

Systemic Challenges Facing the Department
This report summarizes the most prevalent of the systemic management and performance
challenges facing the Department of Defense as identified in the audit reports issued
FYs 2003 through 2007. Annually, the DoD OIG summarizes what it considers the most
serious management and performance challenges. The DoD OIG summary and a brief
assessment of the Department’s progress in addressing those challenges are reported in
the DoD Agency Financial Report.2 In the FY 2007 Agency Financial Report, the DoD
OIG identified and reported, as it has in previous years, contract management and
financial management as two challenge areas that have an impact on OEF and OIF as
well as on GWOT.

Contract Management. In the FY 2007 Agency Financial Report, the DoD OIG
reported that the Department continued to experience the management challenge to
provide required materiel and services that are superior in performance, high in quality,
sufficient in quantity, and within the time frames needed by the warfighter while
balancing the cost concerns for the taxpayer. With the war, the volume and complexity
of purchases have obviously increased. DoD spending in FY 2007 (with supplementals)
exceeded $600 billion, which is more than double the spending from FY 2000. The sheer
1
    GAO Report No. 08-557R.
2
    For FY 2007, the Department has chosen to produce an alternative to the consolidated Performance and
    Accountability Report called the Agency Financial Report.



                                                     1
number of contracting actions and the pressures on contracting officials to award
procurements faster make the challenge of correcting the problems more difficult.

Although the problems encountered in the contracting process are not unique to the
wartime environment, the risk of critical gaps in the contracting process increases during
contingency operations. The challenge in a wartime environment is to mitigate these
gaps. Gaps occurred when:
       • user requirements were not met,
       • funds were not spent appropriately and were unaccounted for,
       • goods and services were not properly accounted for,
       • delivery of goods and services were not made properly,
       • individuals involved in the acquisition process lacked integrity, and
       • adequate documentation was not retained or prepared.

Financial Management. In the FY 2007 Agency Financial Report, the DoD OIG stated
that the Department faced financial management challenges that are complex and
long-standing, and pervade virtually all its business operations. The DoD OIG had
previously identified and reported on several material control weaknesses that reflect
some of the pervasive and long-standing financial management issues faced by DoD.
These weaknesses, which also affect the safeguarding of assets and proper use of funds
and impair the prevention and identification of fraud, waste, and abuse, include the
following.
        • Inventory
        • Government-furnished material and contractor acquired material

Logistics. In the FY 2005 Performance and Accountability Report, the DoD OIG stated
the challenge of logistics is to provide the right force the right personnel, equipment, and
supplies in the right place, at the right time, and in the right quantity, across the full range
of military operations. The 2006 Quadrennial Defense Review Report discussed efforts
to improve visibility into supply chain logistics costs and performance. It also stated that
DoD sought to:
        • establish a Defense Coalition Support Account to fund and, as appropriate,
            stockpile routine defense articles such as helmets, body armor, and night
            vision devices for use by coalition partners;
        • expand Department authority to provide logistics support, supplies, and
            services to allies and coalition partners to enable coalition operations with
            U.S. forces;
        • expand Department authority to lease or lend equipment to allies and coalition
            partners for use in military operations in which they are participating with
            U.S. forces; and,
        • expand the authorities of the Departments of State and Defense to train and
            equip foreign security forces best suited to internal counterterrorism and
            counter-insurgency operations.




                                               2
The 2006 Quadrennial Defense Review Report also outlined initiatives to address
challenges such as Radio Frequency Identification technologies, which will play a key
role in achieving the Department’s vision for implementing knowledge-enabled logistics
support to the warfighter through automated asset visibility and management. 3

High-Risk Areas
Since 1990, the GAO has periodically reported on Government programs and operations
that it identifies as “high risk.” These efforts bring focus to a targeted list of major
challenges that impede effective Government and cost the Government billions of dollars
each year. Since 1990, GAO has identified DoD Contract Management, Logistics, and
Financial Management as high-risk areas. Historically, high-risk areas have been so
designated because of traditional vulnerabilities related to their greater susceptibility to
fraud, waste, abuse, and mismanagement. As the high-risk program has evolved, the
high-risk designation draws attention to areas associated with broad-based
transformations needed to achieve greater economy, efficiency, effectiveness,
accountability, and sustainability of selected key Government programs and operations.
The DoD has eight of its own high-risk areas and shares responsibility for six
Government-wide high-risk areas. 4

Oversight
The Defense oversight community and GAO issued 314 reports and testimonies between
October 1, 2002, and September 30, 2007, that support OEF and OIF. Of the 314 reports
and testimonies, 12 reports are classified and not included in this report.

We reviewed the 302 reports and testimonies (246 reports and 56 testimonies) and
categorized them into three main functional areas (Contract Management, Logistics, and
Financial Management) 5 based on our review of the pertinent areas covered in the reports
and the subsequent recommendations. We identified 983 recommendations that
addressed one or more functional areas to improve operations that support OEF and OIF.
Table 1 shows the number of reports and recommendations within the three main
functional areas.


                  Table 1. OEF and OIF Related Reports and Testimonies
                                   (FY 2003 - FY 2007)
                                          Number of
                                         Reports and
               Functional Area           Testimonies* Recommendations
               Contract Management            103             302
               Logistics                      119             332
               Financial Management           133             264
               Other                           73             119
               *The total will exceed 302 because reports and testimonies may cover multiple
                  function areas.



3
    Quadrennial Defense Review, February 6, 2006.
4
    GAO Report No. 07-310, “HIGH-RISK SERIES: An Update,” January 2007.
5
    Reports and testimonies that were identified as outside Contract Management, Logistics, and Financial
    Management functional areas were categorized as “Other.”



                                                      3
Since FY 2003, the Defense oversight community and GAO have steadily increased their
oversight of OEF and OIF operations (see Table 2). The oversight community has
provided a balanced review of Contract Management, Logistics, and Financial
Management areas supporting OEF and OIF.


                                                    Table 2. Oversight of OEF and OIF Operations
                                                              FY 2003 through FY 2007
                                                    120

                                                    100
                         Reports and Testimonies*




                                                     80

                                                     60

                                                     40

                                                     20

                                                      0
                                                           FY 2003   FY 2004    FY 2005   FY 2006   FY 2007
       Contract Management                                    1         8         13        23        17
       Logistics                                              5        10         10        12        25
       Financial Management                                   2         8         18        26        14
       Other                                                  1         2          5         8         7
       Reports and Testimonies with                           2        20         18        26        42
       No Recommendations
       Total                                                 11        48         64        95        105

    *-A single report in this graph can have multiple recommendations in multiple categories.
Source: DoD OIG analysis



Recommendations
As of September 30, 2007, sufficient actions have been taken on 699 of the
983 recommendations (71 percent) and these recommendations are considered
completed. We did not report on any recommendations that were closed after September 30,
2007, but will do so in a future report. Of the 284 recommendations open as of
September 30, 2007, 55 recommendations were to agencies and activities outside of
DoD. Table 4 (page 16) shows the overall status of recommendations as of
September 30, 2007.

Initiatives
In addition to the actions on OEF and OIF related recommendations, DoD has taken other
actions, whether required by public law or self-initiated, to address challenges in
Operations Enduring and Iraqi Freedom. For the purpose of this report, we focus on
discussing initiatives that DoD has reported to us that we believe should directly help
overcome DoD challenges in Contract Management, Logistics, and Financial
Management.




                                                                            4
Chapter 1. Systemic Challenges During
Wartime Contingency Operations for
Contract Management, Logistics, and
Financial Management
Over the course of conducting Operations Enduring and Iraqi Freedom, DoD experienced
significant and recurring systemic challenges in the following functional areas:
        • Contract Management: Contract Oversight and Resource Limitations
        • Logistics: Asset Accountability, Visibility, and Equipping the Force
        • Financial Management: Accuracy of Cost Reporting and Accountability

Further, systemic challenges were common in more than one of the functional areas.
Specifically, shortfalls in training and in policy and procedures were systemic challenges
reported in more than one functional area. The Defense oversight community and GAO
have identified hundreds of millions of dollars in assets that DoD was unable to
demonstrate adequate accountability for as well as more than a billion dollars in
inaccurate cost reporting.

Contract Management
DoD has experienced challenges since FY 2003 in providing an adequate number of
personnel to perform contractor oversight and in providing adequate training to the
personnel that were performing oversight of contractors supporting Operations Enduring
and Iraqi Freedom. The DoD OIG, AAA, AFAA, SIGIR, and GAO all reported on the
challenges DoD has experienced with the lack of adequate oversight over contractors in
both OEF and OIF. As reported by the DoD oversight community and GAO, DoD has
taken action since FY 2003 to improve its guidance on the use of contractors to support
deployed forces. However, the DoD oversight community and GAO continue to report
that long-standing problems continue to hinder DoD oversight of contractors at deployed
locations.

Contract Oversight Personnel
DoD has experienced challenges in providing an adequate number of personnel to
perform contractor oversight for OEF and OIF. As reported by GAO, a lack of adequate
contract oversight personnel was a DoD-wide problem; the problem was more severe for
more demanding contracting environments such as Iraq and Afghanistan, and it presented
unique difficulties. Without an adequate number of personnel to perform oversight of the
contractors, DoD increases its risks that contractors are not meeting contract
requirements. 6

For example, the DoD OIG identified the lack of adequate contractor surveillance in
FY 2003 for 13 of 24 contracts, valued at $122 million. These contracts were awarded
by the Defense Contracting Command—Washington to support the Office of
Reconstruction and Humanitarian Assistance. 7 In FY 2004, the GAO also identified that
6
    GAO Report No. 07-145.
7
    DoD OIG Report No. D-2004-057.


                                            5
the lack of adequate staffing presented challenges to several agencies and resulted in
inadequate contractor oversight. GAO stated that although agencies took action, some of
these early contract administration issues were not fully resolved. 8 In FY 2007, AFAA
identified that U.S. Air Forces Central personnel at three of four locations in Southwest
Asia did not adequately monitor contract performance for seven (out of ten) contracts
valued at $27.4 million. 9 SIGIR discussed, in FY 2007, the difficulty in recruiting
qualified Contracting Officer’s Technical Representatives for appointment in support of
Logistics Civil Augmentation Program (LOGCAP) Task Order 130. During the SIGIR
audit, the Defense Contract Management Agency (DCMA) did appoint 18 Contracting
Officer’s Technical Representatives to oversee the task order. 10 GAO also stated in
FY 2007 that although DoD took action to improve its guidance on the use of contractors
to support deployed forces since FY 2003, a number of long-standing problems continued
to hinder DoD management and oversight of contractors at deployed locations. Although
DoD issued the first DoD-wide instruction 11 on the use of contractors to support
deployed forces, which addressed some of the problems that were previously raised, there
were concerns that DoD Components were not implementing this instruction.
Ultimately, while DoD new guidance was a good first step towards improving the
Department’s management and oversight of contractors, the Department continued to
face problems, including:

           •   limited visibility over contractors and contractor activity,
           •   lack of adequate contract oversight personnel,
           •   limited collection and sharing of institutional knowledge, and
           •   limited or no information on contractor support in predeployment training. 12

As stated by the DoD OIG, appropriate Government surveillance of contractor
performance is required to give reasonable assurance that efficient methods and effective
cost controls are being used. 13

Contract Training
DoD experienced challenges to provide adequate training necessary for contract
oversight personnel to perform their respective oversight functions. The DoD OIG
reported that without adequate contract training for personnel assigned oversight duties,
DoD cannot be assured that it paid fair and reasonable prices for goods and services
purchased. For example, the DoD OIG identified the lack of adequate training of
personnel in FY 2003 at the Defense Contract Command—Washington. Specifically,
Defense Contract Command—Washington personnel, who did not have contract
backgrounds or contract-related training, inappropriately approved 13 out of 24 contracts
without validating the cost data. The DoD OIG determined that Defense Contract
Command —Washington personnel approved and signed $7 million invoiced by a
contractor without verifying whether the Government received the material. 14 In another
8
    GAO Report No. 04-605.
9
    AFAA Report No. F-2007-0005-FD3000.
10
     SIGIR Report No. 07-001.
11
     DoD Instruction 3020.41, “Contractor Personnel Authorized to Accompany the U.S. Armed Forces,”
     October 2005.
12
     GAO Report No. 07-145.
13
     DoD OIG Report No. D-2004-057.
14
     DoD OIG Report No. D-2004-057.


                                                    6
example, in FY 2006, AAA identified that although the LOGCAP Support Unit had taken
sufficient actions to improve training and its effectiveness, the training process did not
provide enough practical exercises on determining and validating requirements and on
preparing Statements of Work and Independent Government Cost Estimates. 15 In
FY 2007, AFAA identified that quality assurance personnel were not provided necessary
training before they assumed quality assurance responsibilities. 16


Logistics
Before OEF and OIF, DoD experienced challenges in logistics business processes
capabilities and responsibilities. Specifically, DoD logistics policies and procedures
were inadequate to fully support the OEF and OIF contingency operations. A lack of
clear and focused policies and procedures led to inconsistencies and inefficiencies
including challenges in accountability and visibility over DoD assets and equipment
destined for the sovereign governments of Afghanistan and Iraq.

The Defense oversight community and GAO have all reported on the challenges DoD has
experienced with the logistics operations supporting OEF and OIF. The Defense
oversight community and GAO have identified more than a billion dollars in assets that
DoD was unable to demonstrate adequate accountability or visibility over. Since the
1990s, DoD supply chain management has been identified as a high-risk area because of
high inventory levels and a supply system that was not responsive to the needs of the
warfighter.

Logistics Accountability and Visibility
DoD could not demonstrate adequate accountability for more than $1.3 billion in
deployed assets and could not demonstrate visibility over $318 million in assets as
reported by the Defense oversight community. Accounting for location and disposition
of assets, including munitions-related assets, was a challenge during OEF and OIF.
Logistics accountability includes recommendations made to improve establishing or
maintaining records to identify, acquire, account for, control, store, or properly dispose of
assets.

Asset Accountability
DoD experienced challenges in demonstrating accountability over DoD, Government-
furnished, and Iraq and Afghanistan assets. The DoD oversight community and GAO
identified about $1.3 billion in assets that DoD did not demonstrate adequate
accountability over.

       DoD Assets. In FY 2004, AFAA identified that an air expeditionary wing’s
accountability records did not include all weapons on hand, did not reflect accurate serial
numbers for weapons on hand, but included weapons that were not on hand. 17 In
FY 2004, GAO identified a $1.2 billion discrepancy in supplies sent to theater versus
what DoD theater personnel reported. 18 In FY 2005, AFAA discussed another air
expeditionary wing that could not locate 14 equipment assets valued at $8.7 million and

15
     AAA Report No. A-2006-0018-ALL.
16
     AFAA Report No. F-2007-0005-FD3000.
17
     AFAA Report No. F-2004-0060-FDE000.
18
     GAO Report No. 04-305R.



                                             7
did not record more than 400 on-hand equipment assets on accountable records. 19 In
FY 2006, AAA found that property records maintained by division units did not always
accurately account for left-behind equipment and equipment returning from OEF and
OIF. AAA also found that the property book records for 99 out of 879 vehicles contained
discrepancies. 20 Again in FY 2007, AFAA identified that the Air Force did not
adequately account for deployed assets and that estimated activities Air Force-wide lost
accountability of 5,800 deployed assets valued at $108 million. 21 In FY 2007, AAA
found that 8 percent of sampled returning equipment was not verified as accounted for on
unit property records because some Army Reserve unit and installation personnel did not
follow established procedures and best practices to process equipment transactions during
the mobilization, deployment, demobilization, and redeployment process. 22 The lack of
asset accountability impeded DoD visibility over deployed assets.

       Government-Furnished Property and Equipment. Contractors in theater did
not always properly account for Government-furnished property and equipment. In
FY 2006, AAA identified a systemic problem with the accountability and visibility of
Government-furnished equipment that the Army transferred to the LOGCAP contractor.
Specifically, the contractor’s property administrator stated he did not notify the Army
when they removed an asset from their property book. 23

        Government of Iraq and Afghanistan Assets. DoD had a challenge accounting
for U.S.-provided equipment. Specifically, GAO reported that DoD and Multi-National
Force-Iraq may not be able to account for Iraqi Security Forces receipt of about 90,000
rifles and about 80,000 pistols that were reported as issued but were not recorded during
the earlier phases of training and equipping Iraqi Forces (2004 through 2006). 24 GAO
later reported that although DoD took action in December 2005 to establish a centralized
record of all equipment distributed to Iraqi forces, DoD could not account for 190,000
weapons, 135,000 items of body armor, and 115,000 helmets reported as issued to Iraqi
forces as of September 2005. 25 In FY 2006, SIGIR identified that DoD did not have
adequate accountability procedures in place over small arms procured for Iraq Security
Forces. Specifically, SIGIR identified material weaknesses because not all weapons
procured for the Iraq Security Forces were properly accounted for. This may indicate
physical security concerns over weapons and the lack of accountability procedures to
track and maintain visibility of small arms, to include those transferred. 26 In FY 2007,
GAO indicated that the overwhelming size and number of conventional munitions
storage sites in Iraq, combined with certain prewar planning assumptions that proved to
be invalid, resulted in U.S. Forces inadequately securing those sites and in widespread
looting, according to field unit, lessons learned, and intelligence reports. Not securing
these conventional munitions storage sites was costly because, as Government reports
indicated, looted munitions were used to make Improvised Explosive Devices that killed
or maimed many people and would likely continue to support terrorist attacks in the
region. As of October 2006, according to Multi-National Corps-Iraq, some remote sites
19
     AFAA Report No. F-2005-0058-FDE000.
20
     AAA Report No. A-2006-0188-ALL.
21
     AFAA Report No. F-2007-0004-FC4000.
22
     AAA Report No. A-2007-0061.
23
     AAA Report No. A-2006-0083-ALL.
24
     GAO Report No. 07-308SP.
25
     GAO Report No. 07-711.
26
     SIGIR Report No. 06-033.



                                            8
were not revisited to verify whether they posed any residual risk or whether they were
physically secured. DoD did not appear to have conducted (in FY 2007) a theater-wide
survey and assessment of the risk that unsecured conventional munitions represent to
U.S. forces and others. 27 Internal sources other than our universe of completed reports
and testimonies show that in July 2007 the DoD OIG initiated and led an effort to assess
the status of the lack of accountability over munitions in Iraq and Afghanistan.

As stated above in the accountability reports, the lack of accountability over assets affects
DoD visibility over these assets, which can impact DoD ability to transfer equipment to
units preparing to deploy.

Asset Visibility
DoD had challenges in demonstrating asset visibility, including visibility of about
$318 million in assets. Without asset accountability, asset visibility was compromised
because records identifying the location of equipment were not adjusted to reflect the
redisposition of the assets. Although major combat operations were successful during the
initial phases of OIF, there were substantial logistics support problems. Asset visibility is
achieved by using timely and accurate information systems that track the distribution of
assets. Visibility begins at the point from which materiel is shipped to the theater of
operations and continues until it reaches the user. Critical to visibility is the capability to
update source data dynamically with the near real-time status of shipments from other
combat service support systems until the shipments arrive at their ultimate destinations.
Units operating in the theater could not track equipment and supplies adequately. The
inaccurate records caused DoD personnel to spend unnecessary time and energy locating
equipment needed for units preparing to deploy. According to AAA and AFAA reports,
higher-tiered asset systems did not contain asset visibility data used by Army and Air
Force decision makers.

For example, in FY 2006 and FY 2007, AAA found that U.S. Army Forces Command
used data recorded in asset visibility tools, such as Command Asset Visibility and
Equipment Redistribution System, to identify and transfer equipment to units preparing
to deploy. This process was compromised because of the erroneous supporting records. 28
In FY 2007, AFAA reported that Air Force leaders did not have total asset visibility and
were not always able to determine whether the right assets were at the right locations to
meet mission requirements. AFAA estimated that activities Air Force-wide incorrectly
coded deployed locations for 15,373 assets, valued at $213.2 million, and incorrectly
reported the deployment status of 2,689 assets, valued at $104.7 million. 29

The reports show that besides challenges in maintaining adequate visibility over assets
on-hand, DoD experienced some challenges in providing its forces with the equipment
necessary to conduct its missions.

Equipping the Force
DoD faced challenges in properly equipping its forces supporting OEF and OIF.
Specifically, U.S. military forces experienced shortages in supplying necessary amounts
of equipment such as small arms, armor for vehicles, and body armor. The DoD OIG and
GAO highlighted various challenges for equipping military forces.

27
     GAO Report No. 07-444.
28
     AAA Report No. A-2006-0188-ALL; AAA Report No. A-2007-0061.
29
     AFAA Report No. F2007-0004-FC4000.



                                               9
For example, in FY 2007, the DoD OIG identified that the Army equipped its deployed
forces in support of OIF with the small arms necessary to meet Combatant Commanders
requirements. However, before deployment, some units were not fully equipped with the
types of small arms required to do their assigned mission and had to obtain those small
arms from other sources, such as nondeployed units. Nondeployed units faced a potential
shortage of small arms and may not have had the ability to adequately train and maintain
equipment and personnel readiness at an acceptable level. 30

In FY 2007, the DoD OIG surveyed about 1,100 Service members who supported OEF
and OIF. The DoD OIG found that Service members experienced shortages of force-
protection equipment, such as up-armored vehicles, electronic countermeasure devices,
crew-served weapons, and communications equipment. As a result, Service members
were not always able to effectively complete their missions; they had to perform missions
without the proper equipment, use informal procedures to obtain equipment and
sustainment support, and cancel or postpone missions while waiting to receive
equipment. 31

DoD also experienced challenges in equipping its forces with armored trucks and body
armor. Acquisition-related issues caused shortages in meeting DoD armored trucks and
body armor requirements. Specifically, DoD did not adequately leverage acquisition
opportunities between Army and Marine Corps truck armor procurements. In addition,
the increased requirement for new body armor exceeded the manufacturing increased-
production capabilities.

        Armored and Tactical Vehicles. GAO identified that U.S. military forces in
Iraq experienced shortages of truck armor. GAO also found that although truck armor
requirements were determined in November 2003, the Army did not produce all the
armor kits until February 2005 and did not install the kits to meet the initial requirements
until May 2005. 32 In FY 2007, the DoD OIG reported that the Marine Corps Systems
Command continued to award contracts for armored vehicles to contractors who
repeatedly failed to meet contractual delivery schedules for getting vehicles to the
theater. In addition, the DoD OIG found that TACOM Life Cycle Management
Command 33 awarded a contract for crew protection kits to another contractor that did not
meet the Federal Acquisition Regulation definition of a responsible prospective
contractor. Specifically, the contractor did not have the necessary production control
procedures, property control systems, and quality assurance measures in place to meet
contract requirements for crew protection kits. As a result, the TACOM Life Cycle
Management Command received crew protection kits with missing and unusable
components. This increased the kit installation time and required additional kit
inspections. 34
        Body Armor. DoD did not have an adequate supply of the new body armor in
support of its expanded body armor requirements for Operation Iraqi Freedom. In
FY 2005, GAO reported that new Interceptor body armor was not available in sufficient
quantities to U.S. Military forces in Iraq sometime between October 2002 and
30
     DoD OIG Report No. D-2007-010.
31
     DoD OIG Report No. D-2007-049.
32
     GAO Report No. 07-308SP.
33
     Referred to in previous DoD Inspector General reports as the Tank-automotive and Armaments
     Command.
34
     DoD OIG Report No. D-2007-107.



                                                    10
September 2004. But, according to U.S. Central Command (CENTCOM) officials, all
personnel in Iraq had the new armor by January 2004. GAO also reported that because of
the shortages, CENTCOM officials stated they had prioritized the issue of the new body
armor to those who were most vulnerable. Body armor was also not available for all
support personnel, such as the Army’s 377th Theater Support Command, while
insurgents were attacking and interdicting supply routes in Iraq. GAO further stated that
because of the shortages, many individuals bought body armor with personal funds. The
Congressional Budget Office estimated that as many as 10,000 personnel purchased vests
and as many as 20,000 purchased plates with personal funds; it estimated the total cost to
reimburse them would have been $16 million in 2005. 35

Financial Management
DoD experienced numerous challenges in its processes for recording and reporting its
war-related costs. The challenges included long-standing deficiencies in DoD financial
management systems and business processes, the use of estimates instead of actual cost
data, and the lack of adequate supporting documentation. DoD took some steps to
address these challenges, but problems remain. Without transparent and accurate cost
reporting, Congress and DoD will not have reliable information on how much the war
costs, sufficient details on how appropriated funds are spent, and the historical data
needed to consider future funding needs. Reporting the cost of war, internal controls
over cash, and DoD budget and obligation requirements are notable accountability
challenges in Financial Management.

Accuracy of Cost Reporting
DoD experienced challenges in providing accurate and reliable cost reporting for OEF
and OIF operations. The inadequate processes for recording and reporting GWOT costs
raised concerns that these data may not accurately reflect the true nature of the cost.
Specifically, neither DoD nor Congress can reliably know how much the war is costing
or know the details on how appropriated funds are being spent, or have historical data
useful in considering future funding needs. The Chief Financial Officers Act of 1990
requires agencies to “…develop and maintain an integrated agency accounting and
financial system, including financial reporting and internal controls, which …provides
for the development and reporting of cost information.” 36 DoD Financial Management
Regulation, volume 12, chapter 23, paragraph 230104, as of September 2007, requires
that controls, accounting systems, and procedures provide in financial records the proper
identification and recording of costs incurred in supporting contingency operations.

For example, in FY 2005, GAO found numerous problems in DoD processes for
recording and reporting costs for GWOT, raising significant concerns about the overall
reliability of DoD reported cost data. Factors affecting the reliability of DoD reported
costs included long-standing deficiencies in DoD financial systems, the lack of a
systematic process to ensure that data were correctly entered into those systems,
inaccurately reported costs, and difficulties in properly categorizing costs. In at least one
case, reported costs may have been materially overstated. Specifically, GAO reported
that DoD then-reported obligations for mobilized Army reservists in FY 2004 were based
primarily on estimates rather than actual information and differed from related payroll
information by as much as $2.1 billion. In addition, GAO found inadvertent double
counting in the Navy and Marine Corps’ portion of DoD reported costs amounting to

35
     GAO Report No. 05-275.
36
     Chief Financial Officers Act of 1990, Section 902.



                                                      11
almost $1.8 billion from November 2004 through April 2005. GAO also found some
incremental base operations costs that appeared, at best, incidental to the support of
GWOT. In summary, although GAO identified significant data reliability problems,
GAO did not determine the extent that total costs were misstated because it was not
feasible to examine all reported costs.37

In addition to the double counting GAO found, in FY 2005, the Naval Audit Service
reported that 17 of the 44 Marine Corps System Command contracts (valued at
$93.3 million) from FY 2003 and FY 2004 did not contain the proper Special Interest
Codes. The Special Interest Codes indicated that the contracts supported OIF, would be
reported as OIF-related expenses, and the Service would receive reimbursement for the
OIF-related expenses.38

In FY 2006, SIGIR found that the U.S. Army Corps of Engineers over reported its
obligations by $362 million for Project and Contracting Office obligations recorded in
U.S. Army Corps of Engineers financial records. The $362 million in obligations were
recorded under the vendor name “Dummy Vendor,” which does not constitute proper
obligations. This also is not consistent with a 1995 decision by the Comptroller General
of the United States on appropriations availability, the GAO Appropriations Law
Manual, and the DoD Financial Management Regulation requirements for the recording
and reviewing of commitments and obligations. These funds would expire if proper
obligations actions were not taken by September 30, 2006.39

Financial Accountability
DoD had challenges in demonstrating financial accountability in OEF and OIF. The
GAO, DoD OIG, and SIGIR have reported on accountability challenges.

In FY 2004, GAO reported its concerns over transparency and accountability over DoD
GWOT cost reporting. It also reported that DoD cost reporting included large amounts of
funds that were reported as obligated in miscellaneous categories and thus provided little
insight on how those funds were spent. GAO highlighted that an earlier FY 2004 report40
identified that 35 percent of obligations DoD reported in the FY 2003 Operation and
Maintenance account were in “other supplies and equipment” and “other services and
miscellaneous contracts.”41

In FY 2005, GAO reported that DoD modified its guidance to define more clearly some
of the cost categories and DoD took additional steps to strengthen the oversight and
program management of cost reporting. GAO reported individual commands took steps
to control costs and DoD policy advised its officials of their financial management
responsibilities to ensure the prudent use of contingency funding. However, GAO also
had concerns that DoD did not systematically call for all commands involved in GWOT
to take steps to control costs, set general parameters to guide cost-control efforts, and
keep the Under Secretary of Defense (Comptroller) informed of those steps and their



37
     GAO Report No. 05-882.
38
     Naval Audit Service Report No. N2005-0018.
39
     SIGIR Report No. 06-037.
40
     GAO Report No. 04-668.
41
     GAO Report No. 04-915.



                                                  12
success. DoD agreed to most recommendations; however, it did not agree to establish
DoD-wide guidance on cost controls. 42

In FY 2007, GAO reported that DoD and the Military Services took specific steps
intended to improve the accuracy and reliability of their reported GWOT obligation data;
however, some problems remained with transparency over certain costs and inaccuracies
in reported obligations. In August 2005, the DoD Comptroller issued guidance to help
DoD Components more accurately and consistently report obligations for contingencies
such as GWOT. It directed DoD Components to perform a monthly variance analysis to
review and validate that their reported obligations were accurate and provided a fair
representation of ongoing activities. The DoD Comptroller also issued guidance that
directed submitting DoD Components to attest to the accuracy of their monthly
obligation data in DoD Supplemental and Cost of War Execution Report and affirm that
the report provided a fair representation of ongoing activities. However, because these
efforts were in the early stages of implementation, GAO did not fully evaluate the
impact. 43

Again, in FY 2007, GAO reported on its concerns about the lack of detail in accounting
for obligations and expenditures in the DoD procurement account. GAO stated the
detailed accounting would provide Congress with the visibility it needs to identify the
types of equipment procured with the reset funds it appropriates, such as aircraft,
vehicles, or communication and electronic equipment. 44

Commanders’ Emergency Response Program. DoD experienced challenges in CERP,
such as maintaining program accountability over its CERP funding. AAA, SIGIR, GAO,
and DoD OIG identified accountability-related challenges with the CERP program in
Iraq and Afghanistan. The CERP supports OEF and OIF by providing ground
commanders a source of funds to respond to urgent humanitarian relief and
reconstruction requirements in their areas of responsibility by carrying out programs that
immediately assist the local population. Table 3 shows the funds appropriated or
requested (FY 2008) for CERP, in billions of dollars.



           Table 3. Funding for Commanders’ Emergency Response Program

                                                                   GWOT
                          FY 2005           FY 2006 FY 2007 FY 2008 Total
              Iraq           .7               .7       .7      .8    2.9
              Afghanistan    .1                .2      .2      .2     .8*
                Total       .8                .9      1.0     1.0    3.7

              * The apparent discrepancy for Afghanistan is due to rounding.

Source: CERP data as reported by the Deputy Secretary of Defense during testimony before the House
Budget Committee on July 31, 2007


42
     GAO Report No. GAO-05-882.
43
     GAO Report No. GAO-07-076.
44
     GAO Report No. GAO-07-814.



                                                    13
For FY 2006 and FY 2007, including DoD FY 2007 CERP supplemental increase of
$.5 billion, the CERP programs for OEF and OIF combined was about $1.9 billion.45
In FY 2005, AAA reported challenges with Multi-National Security Transition
Command-Iraq documentation in the CERP files. It identified shortfalls in documenting
and maintaining results of coordination with others, cost estimates from subordinates,
Statements of Work, and requirement requests. 46 A followup report that AAA issued
later in FY 2005 showed that Multi-National Security Transition Command-Iraq had
implemented previous recommendations, but still had opportunities to improve oversight
of its CERP program.47 Also during FY 2005, SIGIR issued similar findings; it
concluded that while CERP-appropriated funds were properly used for the intended
purposes, controls over the distribution of appropriated funds were not consistently
followed and required documents were not consistently used to maintain accountability
of projects.48

By April 2007, SIGIR found that while Multi-National Corps-Iraq had improved its
controls over fund accountability for CERP in Iraq, project documentation was still a
weakness.49 Also in FY 2007, GAO reported that DoD needed to provide greater
transparency on the use of CERP funds for condolence payments by clarifying the
definitions as to what should be reported in the two CERP categories: (1) condolence
payments and (2) battle damage payments. GAO further stated DoD needed to include
document reference numbers for payments to allow DoD to determine whether
expenditures of CERP funds were appropriately categorized and to permit DoD to obtain
detailed information for analysis and reporting, as appropriate.50 Further, in FY 2007,
the DoD OIG reported that for CERP in Afghanistan, 15 of the 16 pay agents reviewed
did not have appropriate physical security for storing cash; the other pay agent did
not hold cash because she was collocated with a finance office. Of the 16 pay agents,
2 inappropriately disbursed cash.


Systemic Challenges Across Functional Areas
Aside from the challenges in each functional area previously discussed, in summarizing
this report we identified common challenges across the functional areas. Specifically,
from our review of the Defense oversight community and GAO reports and testimonies,
training and policy and procedures challenges were identified in more than one of these
functional areas: Contract Management, Logistics, and Financial Management.

Training
The Defense oversight community and GAO issued 39 reports and testimonies that
discuss various training challenges DoD faced in conducting OEF and OIF operations. In
the three functional areas, we identified:
        15 reports and testimonies that discuss Contract Management training challenges;
        15 reports and testimonies that discuss Logistics training challenges; and,
         9 reports and testimonies that discuss Financial Management training challenges.
45
   FY 2007 Emergency Supplemental Request for the Global War on Terror, DoD, February 2007.
46
   AAA Report No. A-2005-0173-ALE.
47
   AAA Report No. A-2005-0332-ALE.
48
   SIGIR Report No. 05-014.
49
   SIGIR Report No. 07-006.
50
   GAO Report No. GAO-07-699.


                                                14
Policies and Procedures
The Defense oversight community and GAO issued 121 reports that discuss various
policy and procedure challenges DoD faced in conducting OEF and OIF operations. In
the three functional areas, we identified:

       29 reports that discuss Contract Management policy and procedure challenges;
       53 reports that discuss Logistics policy and procedure challenges; and,
       39 reports that discuss Financial Management policy and procedure challenges.




                                          15
Chapter 2. Responsive Actions Taken by
Management to Address Recommendations
As of September 30, 2007, sufficient actions had been taken on 699 of the
983 recommendations (71 percent); these recommendations are considered completed.
We did not report on any recommendations that were closed after September 30, 2007,
but will do so in a future report. Of the 284 recommendations open as of September 30,
2007, 55 recommendations were to agencies and activities outside of DoD. Table 4
shows the overall status of recommendations as of September 30, 2007.


                         Table 4. Overall Status of Recommendations

                                                            Percent               Percent
                         Recommendations        Closed      Closed        Open     Open
            FY 2003            28                 27         96.4          1        3.6
            FY 2004           105                 96         91.4          9        8.6
            FY 2005           257                211         82.1          46      17.9
            FY 2006           282                220         78.0          62      22.0
            FY 2007           311                145         46.6         166      53.4
             Total            983                699         71.1         284      28.9


Standards for Followup on Recommendations
Office of Management and Budget Circular A-50 “Audit Followup,” September 29,
1982, states that audit followup is an integral part of good management and is a shared
responsibility of agency management officials and auditors. Each agency must establish
systems to ensure the prompt and proper resolution and implementation of audit
recommendations. These systems must provide for a complete record of action taken on
both monetary and nonmonetary findings and recommendations. 51

Generally accepted government auditing standards prescribe followup requirements for
audit findings and recommendations. Accordingly, for performance audits, generally
accepted government auditing standards state that auditors should evaluate whether the
audited entity has taken appropriate corrective action to address findings and
recommendations from previous engagements that are significant. Auditors should use
this information in assessing risk and determining the nature, timing, and extent of
current work, including determining the extent to which testing the implementation of the
corrective actions applies to the current engagement objectives. 52
DoD Directive 7650.3, “Follow-up on General Accounting Office (GAO), DoD Inspector
General (DoD IG), and Internal Audit Reports,” October 18, 2006, provides guidance for
GAO, DoD OIG, and other DoD internal audit organizations. Followup is an integral

51
     Office of Management and Budget Circular A-50, September 29, 1982.
52
     GAO-07-731G Government Auditing Standards, July 2007, Chapter 7 “Field Work Standards for
     Performance Audits,” Section 7.36 “Previous Audits and Attestation Engagements.”


                                                   16
part of good management and is a responsibility shared by DoD managers and auditors.
Each agency implements its own followup program in accordance with the prescribed
standards. Further, as described by SIGIR officials, in general, SIGIR attempts to follow
up on open recommendations semiannually to provide current data in the required
semiannual reports to Congress. According to the SIGIR Deputy Assistant Inspector
General for Audit, as of April 2008, SIGIR was developing an automated followup
tracking system.




                                           17
Chapter 3. Initiatives Taken by DoD to
Address Contract Management, Logistics,
and Financial Management Challenges
Besides taking action on OEF and OIF related recommendations, DoD took other actions,
whether required by public law or self-initiated, to address challenges in Operations
Enduring and Iraqi Freedom. For the purpose of this report, we focus on discussing
initiatives that DoD reported to us that we believe should directly help overcome
challenges in DoD Contract Management, Logistics, and Financial Management in OEF
and OIF. 53

Contract Management Initiatives
DoD initiated many actions to address contract-related challenges in OEF and OIF.
These initiatives included establishing and revising guidance, fielding a new contractor
accountability system, adding new contingency contracting training at DoD academic
institutions, and looking at contracting challenges through commissions and task forces.

Guidance on Oversight of Contractors. DoD has issued additional guidance to address
contracting-related challenges in OEF and OIF, which includes jurisdiction over
contractors in contingency areas of operations, tracking contractors performing work
outside the United States, as well as managing and integrating contractor support in joint
and contingency areas of operations.

       •   On October 17, 2006, the Uniform Code of Military Justice (UCMJ) was
           amended to extend UCMJ jurisdiction over persons serving with or
           accompanying U.S. Armed Forces in the field in times of declared war or
           contingency operations. The Secretary of Defense’s March 10, 2008,
           memorandum, UCMJ Jurisdiction Over DoD Civilian Employees, DoD
           Contractor Personnel, and Other Persons Serving With or Accompanying the
           Armed Forces Overseas During Declared War and in Contingency Operations,
           provides additional guidance to commanders on exercising their UCMJ authority
           over civilians and contractors during contingency operations, including those
           supporting the GWOT.

       •   In November 2006, DoD issued implementation for Procedures, Guidance and
           Information No. 225-74, “Solicitation and Award of Contracts for Performance in
           a Foreign Country or Delivery to any Unified Combatant Command Theater of
           Operation.” It requires Combatant Command Contracting offices to establish and
           maintain a Web page listing all prevailing regulations, policies, requirements,
           host nation laws, Orders/Fragmentary Orders, Combatant Commander’s
           directives, unique clauses, and other considerations necessary for soliciting and
           awarding contracts for performance in or delivery to that Combatant Command
           area of responsibility.

       •   In January 2007, the Deputy Under Secretary of Defense (Logistics and Materiel
           Readiness) and the Deputy Under Secretary of Defense (Program Integration)
53
     We are not attesting to the adequacy or effectiveness of the DoD initiatives reported.



                                                       18
           issued guidance instructing the use of the Synchronized Predeployment and
           Operational Tracker (SPOT) as the central repository for information on
           contractors deploying with U.S. Forces. On March 19, 2007, the Director,
           Defense Procurement and Acquisition Policy issued implementing guidance and
           instructed the use of SPOT. On January 28, 2008, the Director, Defense
           Procurement and Acquisition Policy issued guidance that requires that DoD
           contractor personnel data be entered into SPOT for the CENTCOM area of
           responsibility by August 1, 2008.

       •   In October 2007, the acting Under Secretary of Defense for Acquisition,
           Technology, and Logistics issued a memorandum with procedures for contracting,
           contract concurrence, and contract oversight for Iraq and Afghanistan. This
           memo and subsequent policy, procedures, and guidance, issued by the Director,
           Defense Procurement and Acquisition Policy, instructs contracting officers to
           have the Joint Contracting Command—Iraq and Afghanistan review and clear
           Statements of Work and terms and conditions of all contracts requiring
           performance in Iraq or Afghanistan before awarding a contract. Also, upon award
           of any contract, the procuring contracting officer must assign to the Joint
           Contracting Command—Iraq and Afghanistan Federal Acquisition Regulation
           (FAR) Part 42 and Defense Federal Acquisition Regulation Supplement
           (DFARS) Part 242 contract administration of the contract portions that relates to
           performance in Iraq or Afghanistan.

       •   In March 2008, DoD issued DFARS 225.3, “Contracts Performed Outside the
           United States.” It requires contracting officers, when using the clause Federal
           Acquisition Regulation 52.225-19, “Contractor Personnel in a Designated
           Operational Area or Supporting a Diplomatic or Consular Mission Outside the
           United States,” to inform the contractor that SPOT is the appropriate automated
           system to use for the list of contractor personnel required by paragraph (g) of the
           clause.

       •   DoD drafted Joint Publication 4-10, “Operational Contract Support in Joint
           Operations,” which contains detailed content on contracting and contractor
           management in joint operations. The draft joint publication defines key personnel
           involved in the contracting process and includes a Contracting Support Plan
           Checklist and a Contractor Integration Plan Checklist. The Contracting Support
           Plan Checklist covers the key requirements associated with orchestrating and
           managing contracting efforts in a joint operations area, including a requirement to
           ensure that there are adequately trained Contracting Officer Representatives and
           Contracting Officer Technical Representatives to assist in managing contract
           performance. The Contractor Integration Plan checklist covers the key
           requirements associated with managing contractor personnel in a joint operations
           area and providing Government-furnished support, when such support is required.
           DoD expects to issue the joint publication July 2008. 54
       •   DoD is updating DoD Instruction 3020.41, “Integrating Operational Contract
           Support into Contingency Operations” (formerly entitled “Contractor Personnel
           Authorized to Accompany the U.S. Armed Forces”). The update provides an
           authoritative and comprehensive roadmap of policy and procedures applicable to
           contractor personnel authorized to accompany the U.S. Armed Forces. The

54
     Deputy Director, Program Acquisition and Contingency Contracting, Defense Procurement and
     Acquisition Policy, April 28, 2008.



                                                   19
             revised version contains significant changes to the existing instruction including
             incorporating lessons learned from current operations, requirements for
             developing contractor oversight plans, and requirements for adequate military
             personnel needed to execute contract oversight. 55

SPOT. DoD developed SPOT, an automated system, to track contractors. SPOT, hosted
in the Army network domain (https://spot.altess.army.mil/default.aspx) and operated by a
contractor, has been designated as the Joint Enterprise contractor management and
accountability system to provide a central source of contingency contractor information
in accordance with DoD Instruction 3020.41, “Contractor Personnel Authorized to
Accompany the U.S. Armed Forces,” October 3, 2005. Contractor companies are
required to maintain by name (of each employee) accountability in SPOT while
Government representatives use SPOT for oversight of the contractors they deploy.

Contingency Contracting: A Joint Handbook. Beginning the first quarter of FY 2008,
DoD distributed Contingency Contracting: A Joint Handbook (the Contingency
Contracting Joint Handbook) to the contingency contracting workforce. 56 The
Contingency Contracting Joint Handbook, authorized by the Director, Defense
Procurement and Acquisition Policy and Strategic Sourcing, provides a consolidated
source of information for contingency contracting officers conducting contingency
contracting operations in a Joint environment. The hardcopy book and accompanying
DVD are intended to be used for training at home stations, for reference during
deployment, and for training while deployed. The handbook and DVD provide useful
tools, templates, and training that enable the contingency contracting officer to be
effective in any contracting environment. The Contingency Contracting Joint Handbook
was prepared by the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics (OUSD[AT&L]), Defense Acquisition, Technology, and
Logistics contingency contracting staff, the Defense Acquisition University, and the Air
Force Logistics Management Agency. 57

Contingency Contract Training. Under the Fiscal Year 2007 National Defense
Authorization Act, DoD has expanded contingency contracting training modules through
the Defense Acquisition University (DAU) as required by Section 854 of the Act. 58
DAU has redesigned the contingency contracting curriculum to improve training
supporting “journeyman-level” contingency contracting operations. This will enable
experienced contingency contracting officers to be deployable worldwide and be
effective immediately upon arriving at the site. 59 One example of specific training DAU
already provides is the Construction Contract Management course prepared by DAU for
the Joint Contracting Command—Iraq and Afghanistan. DAU has revised the program
of instruction for the Joint Contingency Contracting Course, CON 234, using the Joint



55
     Ibid.
56
     Panel on Contracting Integrity, Quarterly Progress Update, March 31, 2008.
57
     Contingency Contracting: A Joint Handbook.
58
     Mr. Gary Motsek, Assistant Deputy Under Secretary of Defense, Office of Program Support, before the
     Subcommittee on Oversight and Investigations, U.S. House of Representatives, on April 25, 2007.
59
     Honorable James Finley, Deputy Undersecretary of Defense for Acquisition and Technology, before the
     Subcommittee on Readiness and Management Support, Senate Armed Services Committee, April 2,
     2008.



                                                     20
Contingency Contracting Handbook. 60 DAU is also developing an advanced
contingency contracting course. 61

DAU also hosts the Joint Contingency Contracting Community of Practice on its Web
site to facilitate collaboration and sharing of learning and job support assets, which will
result in improved efficiencies and support. This initiative also serves as a repository for
policy and guidance information, predeployment information, tools, and after action
reports. This community of practice as a Web-based tool enables connects the
contingency contracting community to share expertise and experience. Significant
findings concerning contingency contracting from staff assistant visits or internal self-
inspection programs, as well as after action reports and lessons learned, must be posted to
the DAU Web site. 62 Additional information on DAU contingency contracting related
matters can be found at https://acc.dau.mil/contingency.

Panel on Contracting Integrity. On February 16, 2007, the OUSD(AT&L) established
the Panel on Contracting Integrity in accordance with the requirements of Section 813 of
the Fiscal Year 2007 National Defense Authorization Act (Section 813).

As required by Section 813, the Panel is reviewing DoD progress to eliminate areas of
vulnerability that allow fraud, waste, and abuse to occur. The Panel established 10
subcommittees to support the review of contracting integrity issues: Current Structure of
Contracting Integrity; Sustained Senior Leadership; Capable Contracting Workforce;
Adequate Pricing; Appropriate Contracting Approaches and Techniques; Sufficient
Contract Surveillance; Contracting Integrity in a Combat/Contingent Environment;
Procurement Fraud Indicators; Contractor Employee Conflicts of Interest; and
Recommendations for Change. Each subcommittee completed a formal report
documenting the review of their designated focus areas and presented recommendations
to enhance contracting integrity. The Panel reviewed the requirements of Section 813;
the findings and 20 recommendations in the March 2005 Report of the Defense Science
Board; and the recommendations of GAO Report GAO-06-838R, “Contract
Management: DoD Vulnerabilities to Contracting Fraud, Waste and Abuse,” July 7,
2006. In its first annual report to Congress (December 2007), the Panel identified
21 initial actions in 2008 in the following areas.

       •   Reinforce functional independence of contracting personnel and promptly fill
           contracting leadership positions with qualified leaders of integrity who expect and
           enforce ethical behavior.
       •   Determine appropriate size of the contracting workforce and ensure that it has the
           appropriate skills to effectively and efficiently price, award, and manage more
           than $300 billion in annual contracts.
       •   Develop a DoD-wide consistent contract policy-execution review plan, strengthen
           contracting approaches, and reinvigorate contract surveillance techniques.
       •   Improve planning and training for contracting in combat/contingent
           environments.


60
     Panel on Contracting Integrity, Quarterly Progress Update, March 31, 2008.
61
     Mr. John Young, Under Secretary of Defense for Acquisition, Technology, and Logistics, before the
     House Committee on Armed Services, on April 2, 2008.
62
     Mr. Richard Ginman, Deputy Director, Program Acquisition and Contingency Contracting, Defense
     Procurement and Acquisition Policy, April 28, 2008.



                                                     21
On March 31, 2008, OUSD(AT&L) issued an internal quarterly progress update.
Additional internal quarterly updates on Panel initiatives are scheduled to be issued
through the remainder of 2008. The March issue provided an update on the Panel and its
subcommittees’ efforts. The overview and efforts of the subcommittees on Contracting
Integrity in a Combat/Contingent Environment and Procurement Fraud Indicators are
discussed below.

        Contracting Integrity in a Combat/Contingent Environment Subcommittee.
The Contracting Integrity in a Combat/Contingent Environment subcommittee is chaired
by the Director, Defense Procurement and Acquisition Policy and Strategic Sourcing.
For FY 2008, the Contracting Integrity in a Combat/Contingent Environment
subcommittee will improve training by leveraging Marine Corps and Air Force training
capabilities; improve training on how to run a contracting office in a combat/contingent
environment; and review Fraud Indicator Training and Contracting Office Transition
Plan. In the March 2008 Quarterly Progress Update, the subcommittee reported that the
Department has taken numerous steps forward in improving the quality of training
offered to contingency contracting workforce members in DoD. For example, the Army
revised its Functional Area 51 Contracting Officer Leader Development program and
developed a new training strategy after closely reviewing the programs of instruction
offered by both the U.S. Marine Corps and Air Force. For Fraud Indicator Training, the
subcommittee reviewed the Contingency Contracting Joint Handbook and reported that
with the use of the handbook and DAU training contracting officers will be able to
identify specific indicators of contract fraud found most prevalent in a contingency
environment. The subcommittee also reported that Chapter 4 of the Joint Contingency
Contracting Handbook provides the initial elements of training to prepare the
contingency contracting officer for transition planning.

        Procurement Fraud Indicators Subcommittee. The Procurement Fraud
Indicators Subcommittee is chaired by the Assistant Inspector General, Acquisition and
Contract Management, DoD OIG. The Executive Director for the Panel on Contracting
Integrity initiated this subcommittee to identify what the procurement indicators are and
how they should be addressed. The increased level of DoD spending, especially in a
contingency or expeditionary environment and without a comparable increase in
procurement staffing levels, has increased procurement risks. The March 2008 Quarterly
Progress Update stated that recently reported fraud cases have increased visibility in this
area. The membership of this subcommittee includes representatives nominated by the
Inspectors General of the Military Departments. Further, in its update, the subcommittee
reported it plans to evaluate previously developed information on procurement fraud
indicators both within and outside of the Department and determine the best avenues for
presenting the information to the procurement community. The following are examples
of the subcommittee plans.

       •   Identify all relevant source material previously developed on procurement fraud
           indicators and:
           - determine the need for a Procurement Fraud Indicators handbook for
               acquisition personnel similar to the IG Procurement Fraud Indicators
               Handbook 63 for auditors;
           - review best practices from existing training courses to determine the potential
               for a training module for insertion into DAU training; and
           - pursue the feasibility of an acquisition Web site.


63
     DoD OIG Handbook 7600.3, “Handbook on Fraud Indicators for Contract Auditors,” March 31, 1993.



                                                  22
   •   Conduct research and analysis by implementing the following.
       - Subcommittee members will gather best practices from their own and other
          organizations.
       - Subcommittee will establish tasks necessary to review the best available
          information, review the revised IG Procurement Fraud Indicators Handbook,
          determine the need and contents of a separate acquisition handbook, analyze
          existing training segments, determine focus and content for DAU training
          module, and determine the potential for a one-stop acquisition Web site for
          procurement fraud indicators.

Commissions and Task Forces. In an effort to improve its support of OEF and OIF and
for future contingency operations, DoD has established many commissions and task
forces. The following highlight a few facts on key commissions and task forces.

        Commission on Army Acquisition and Program Management in
Expeditionary Operations. The Secretary of the Army established a 45-day
commission led by Jacques Gansler, former Under Secretary of Defense for Acquisition,
Technology, and Logistics (the Gansler Commission). The Gansler Commission will
“…review the Army’s policies, procedures, and operations regarding acquisition and
program management in expeditionary operations and make findings and
recommendations as to their effectiveness and compliance with applicable laws and
regulations.” In October 2007, the Commission issued its report, “Urgent Reform
Required: Army Expeditionary Contracting,” which states:

   •   The expeditionary environment requires more trained and experienced military
       officers and noncommissioned officers. As of October 2007, only 3 percent of
       Army contracting personnel were active duty military, and Army contracting
       career General Officer positions no longer existed.

   •   The Army’s acquisition workforce was not adequately staffed, trained, structured,
       or empowered to meet the Army needs of 21st-century deployed warfighters.
       Only 56 percent of the military officers and 53 percent of the civilians in the
       contracting career field were certified for their then-current positions.

   •   In spite of a seven-fold workload increase and greater complexity of contracting,
       the Institutional Army did not support this key capability (effective contract
       management).

   •   In spite of almost as many contractor personnel in the Kuwait/Iraq/Afghanistan
       Theater as there are U.S. military personnel, the Operational Army had not yet
       recognized the impact of contracting and contractors in expeditionary operations
       and on mission success.

   •   Contracting (from requirements definition, through contract management, to
       contract closeout) was treated as an operational and institutional side issue instead
       of as a core competence.

        Task Force on Contracting and Contract Management in Expeditionary
Operations. The Under Secretary of Defense for Acquisition, Technology, and Logistics
established the Task Force on Contracting and Contract Management in Expeditionary
Operations to address the specific Gansler Commission recommendations and to
integrate activities responding to the Gansler Commission’s recommendations with the
many other relevant activities already underway in DoD. The task force is guided by
senior leaders in the Acquisition, Technology, and Logistics organization, including the

                                            23
Deputy Under Secretary (Acquisition and Technology); the Director, Defense
Procurement, Acquisition Policy, and Strategic Sourcing; and his Principal Deputy.
These senior leaders are working closely with the Deputy Under Secretary (Logistics and
Materiel Readiness) and the Assistant Deputy Under Secretary of Defense (Program
Support). Membership of this task force includes representatives from all of the
Services, the DCMA, the Joint Staff, the Joint Contingency Contracting cell for Iraq and
Afghanistan, and various elements of the Office of the Secretary of Defense. The task
force meets weekly for progress-tracking purposes, meets periodically with the Services
and DCMA to ensure a coordinated and consistent DoD approach, and meets about once
a month with Dr. Gansler to discuss any points of clarification regarding the Gansler
Commission’s recommendations.

The task force actions implement Section 849 of the Fiscal Year 2008 National Defense
Authorization Act, which directed the Secretary of Defense, in consultation with the Joint
Chiefs of Staff, to evaluate the Gansler Commission’s recommendations to determine the
extent to which such recommendations are applicable to the other Armed Forces. 64

Army Contracting Initiatives. The Army has implemented several initiatives to address
contracting challenges. Specifically, in February 2008, the Army announced the Army
Contracting Campaign Plan to address findings and recommendations from two previous
independent reviews from the Gansler Commission and the Army Contracting Task
Force. The Army Contracting Campaign Plan will enable the Secretary of the Army to
execute recommended improvements to Army contracting. Further, the Secretary of the
Army directed the establishment of the Army Contracting Command as a major
subordinate command of the Army Materiel Command and the realignment of the Army
Contracting Agency under the Army Materiel Command. The Army Contracting Agency
provides contracting services for installation-level services and supplies, and common-
use information technology hardware, software, and services. The realignment of Army
Contracting Agency to Army Materiel Command places the majority of the Army’s
contracting resources into one Army command, which will provide a full range of
contracting services.

Logistics Initiatives
According to the Executive Director for LOGCAP, the following are initiatives in the
logistics support program.
In April 2007, the Army created the Executive Director for LOGCAP, a more than
$30 billion Services program, which reports to the Commanding General of the Army
Sustainment Command. Establishing this position provides program management
oversight of LOGCAP augmentation to combat support/combat service support functions
for supported units in OEF and OIF. The Executive Director has overall executive
responsibility for LOGCAP, under which contractors from the private sector provide a
broad range of logistical and life support services to U.S. and allied forces during combat
operations. The Executive Director also stated he provides liaison LOGCAP planners for
Army Service Component Command worldwide operation planning for support of
logistical and life support services.

As of March 2008, LOGCAP is supported by 66 reserve officer billets from the
LOGCAP Support Unit. One of the LOGCAP initiatives is to increase this unit to
64
     Mr. John Young, Under Secretary of Defense for Acquisition, Technology, and Logistics, before the
     House Committee on Armed Services, on April 2, 2008.



                                                     24
137 personnel, broken out into five detachments for worldwide deployment. A
detachment or its elements would deploy with the newly established Army contract
support brigades to assist in developing requirements.

The program currently consists of Deputy Program Directors deployed in Iraq,
Afghanistan, and Kuwait supported by members of the LOGCAP Support Unit, the
DCMA, and from members of the LOGCAP support contractor. According to the
Executive Director, he also uses continental U.S. assets to augment the requirements of
the forward deployed elements.

Development of Future Doctrine for Logistical Support. Concurrent to providing
management support for logistic services, the program is also developing planning
doctrine on including contractor logistical services in future contingency operations. The
emphasis is “How to plan for, and include, LOGCAP services in operational support
plans.” The goal is to align LOGCAP operational planners with the contract support
brigades to assist the decision-making process for when to use and in developing
requirements for LOGCAP services.

Exercises and Deployment. LOGCAP participates in military training exercises to
teach awareness of LOGCAP efforts. LOGCAP also provides outreach support and
awareness to logistics support personnel and DCMA officers deploying in theater.

In-theater Support. LOGCAP provides in-theater support to military operations.
LOGCAP personnel provide an overview of the program to military commanders, the
Joint Contracting Command—Iraq and Afghanistan, regional contracting centers, and
forward operating base mayors. The LOGCAP program personnel meet with division
and garrison commands to educate them on the process used to seek the services of
LOGCAP when organic logistics services cannot be used. This includes developing
requirements, providing support for forward operating bases, operating dining facilities,
or providing a multitude of field services.

Award Fee. Because LOGCAP operates in different military operations and world-wide,
the program has established an initiative to standardize the evaluation process across the
various groups that assess contractors’ performances in Iraq, Afghanistan, and Kuwait. It
also includes an assessment of what efforts the contractors are making to improve the
quality of operations.

Financial Management Initiatives
DoD Components have implemented many initiatives to address financial management
challenges in wartime contingency operations such as OEF and OIF. The Office of the
Under Secretary of Defense (Comptroller) (OUSD[C]) has implemented several
initiatives such as issuing additional financial guidance and focused funding execution
reviews, and establishing a senior steering group. The Director, Defense Finance and
Accounting Service (DFAS) has implemented several initiatives such as deploying
personnel in August 2007 to assist forward-deployed DoD elements in preparing and
maintaining supporting documentation voucher transactions. In addition, DFAS
initiatives implemented includes reducing the burden on units in Iraq and Kuwait and
improve controls over documentation supporting commercial payments and payments to
foreign governments. For some of the DFAS initiatives, the U.S. Army partnered with
DFAS in implementing the initiative.




                                            25
Under Secretary of Defense (Comptroller). The OUSD(C) has initiated several actions
to address cost and execution of funds challenges in OEF and OIF. Specifically, the
OUSD(C) has issued additional financial management related guidance for contingency
operations, performed focused analysis on funding monthly execution, and established
the Cost of War Senior Steering Group.

        Additional Financial Management Guidance. The OUSD(C) wrote that
because of recent reviews of commercial payments for goods and services in Iraq and
Afghanistan, in September 2007 the OUSD(C) published guidance emphasizing the
requirements for proper payments in contingency operations. The OUSD(C)
memorandum prescribes certification guidelines for payments made in contingency
operation areas including 11 types of information that certifying officers will typically
use to certify and make payments. 65 In May 2008, the OUSD(C) updated the DoD
Financial Management Regulation to incorporate the certification guidelines for
commercial payments in contingency operations from the September 2007. 66

        Monthly Funding Execution Analysis. In December 2007, the OUSD(C)
initiated an effort to increase its overview of DoD execution of OEF and OIF related
funding. As part of this effort, to gauge whether DoD can properly execute the funding
requested for the specific fiscal years, the Comptroller invited personnel from other DoD
Components, such as the DoD OIG, to perform quick-look reviews on the execution of
GWOT funding patterns. These support efforts were included in the OUSD(C) overall
focused analysis of execution of funding. According to OUSD(C) officials, OUSD(C)
now performs a monthly analysis of DoD execution of funding and reports the results to
the Under Secretary of Defense (Comptroller). The monthly analysis provides timely
awareness of funding trends and potential funding execution concerns to the attention of
the Comptroller.

        Cost of War Senior Steering Group. In February 2007, the Deputy Secretary of
Defense established the Cost of War Senior Steering Group to provide governance for the
timely resolution of policy, system, and procedural issues that impact the reporting of the
cost of war. The objective is to improve the credibility, transparency, and timeliness of
the Cost of War reporting, to include CERP. The Cost of War Senior Steering Group is
to:

       •   establish and charter the GWOT Cost of War Project Management Office;
       •   evaluate and approve plans and recommendations for the resolution of policy,
           system, and procedural issues that impact the credibility of Cost of War
           reporting;
       •   facilitate adoption of Cost of War reporting best business practices throughout
           DoD; and
       •   provide oversight and direction to the GWOT Cost of War Program Management
           Office on key metrics, trends, and initiatives that measure the improvements in
           Cost of War reporting. 67

65
     OUSD(C) Memorandum, “Certified Commercial Payments in Contingency Operations,” September 14,
     2007.
66
     DoD Financial Management Regulation, Volume 10, Chapter 8 “Commercial Payment Vouchers and
     Supporting Documents,” May 2008.
67
     See memorandum OSD 01647-07.



                                                 26
Defense Finance and Accounting Service. The Director, DFAS has initiated a
proactive effort both in theater and in the continental U.S., to support the warfighter and
mitigate challenges DoD has in OEF and OIF operations. According to the DFAS
GWOT Program Management Office, since August 2007, DFAS has implemented the
following financial related initiatives.

The DFAS GWOT Program Management Office:
   • mapped processes and developed standard operating procedures for funding and
      reporting;
   • improved tracking of GWOT funds and budget execution by Services leading to
      greater reliability of data incorporated in the GWOT Cost of War report;
   • documented Components’ legacy GWOT reporting business practices;
   • implemented accuracy and compliance measures and scorecard;
   • implemented GWOT Cost of War Status of Funds reporting;
   • achieved a Green progress rating on the President’s Management Agenda
      scorecard;
   • established proactive, aggressive communication channels for GWOT audits;
   • established a viable theater support program; and
   • developed a repeatable process for monitoring GWOT audits, which is considered
      a “Best Practice” in addressing GWOT and financial audits for DoD.

In-Theater Support:
   • Worked with theater commanders 68 to support finance operations and have
     deployed support teams to:
       - perform finance functions;
       - assist with in-depth reviews of commitments, obligations, and disbursements;
       - assist with conducting joint reviews;
       - retrograde finance functions back to DFAS continental U.S. operations and
          free soldiers to perform other missions;
       - provide training support on accounting, vendor pay, military pay disbursing,
          and supporting systems;
       - keep lines of communication flowing between theater finance and DFAS to
          troubleshoot problems;
       - support audit inquiries; and
       - provide supplemental support during unit rotations.

       • Included actions the Program Management Office performed in support of GWOT
         operations in the theater:
           - improved payment controls and documentation in theater,
           - implemented electronic imaging of documents in the theater of operations to
              improve the efficiency of reporting and to reduce risk to soldiers who
              transport documentation,
           - issued guidance and updated policy regulations to improve the communication
              of requirements in the theater,
           - assisted commands in executing and reporting GWOT budget execution, and
           - participated in training units deploying to the theater.




68
     Such as the Multi-National Corps–Iraq, Multi-National Security Transition Command-Iraq, Combined
     Joint Task Force–82, and 336th Financial Management Company Kuwait.



                                                   27
DoD Audit Community Initiatives
In addition to actions taken by the DoD Components, the Defense oversight community
has instituted its own initiatives to address the challenges presented to DoD in OEF and
OIF operations. Some of the initiatives within the Defense oversight community are
focused workforces, focused coordination groups, and comprehensive and coordinated
oversight plans in response to statutory requirements.

The Defense oversight community is increasing its partnerships and providing support
within the Defense community for oversight efforts. For example, the DoD OIG and
AAA are conducting a joint review of the Joint Contracting Command—Iraq and
Afghanistan. In addition, the U.S. Army Corps of Engineers and AAA have provided
personnel to support DoD OIG oversight efforts. The Naval Audit Service and AFAA
have provided support to the DoD OIG munitions accountability assessment effort.

Audit Plan for Support of Coalition Forces in Iraq and Afghanistan. The FY 2008
National Defense Authorization Act, Section 842, “Investigation of Waste, Fraud, and
Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008, requires the Inspector General of the Department of Defense to
develop a comprehensive plan for a series of audits of DoD contracts, subcontracts, and
task and delivery orders for the logistical support of coalition forces in Iraq and
Afghanistan. The Act also requires that the Special Inspector General for Iraq
Reconstruction and the Special Inspector General for Afghanistan Reconstruction
develop a comprehensive plan for a series of audits of Federal agency contracts,
subcontracts, and task and delivery orders for the performance of security and
reconstruction functions in Afghanistan and Iraq.

To show all of the audit work for Afghanistan and Iraq, the DoD OIG has expanded the
audit plan beyond the statutory mandate to include other key issue areas for Afghanistan
and Iraq, such as financial management, and human capital for contract administration.
The plan includes the planned audit work of the Inspectors General of the Department of
State and the U.S. Agency for International Development and the Special Inspector
General for Iraq Reconstruction. The plan also includes the planned audit work of the
Army Audit Agency, Air Force Audit Agency, and Defense Contract Audit Agency
because of the major contributions they make to improve the efficiency and effectiveness
of support to the military.

The Inspectors General of Department of Defense, Department of State, Agency for
International Development, and the Special Inspector General for Iraq Reconstruction are
coordinating their audit plans through existing working groups and councils.
Coordination will include the Special Inspector General for Afghanistan Reconstruction
when, and if, one is appointed.

Workforce. Within the Defense oversight community, the AAA, AFAA, and DoD OIG
have instituted an expeditionary workforce structure. 69 The AAA and DoD OIG
maintain a footprint of personnel on the ground in Afghanistan, Iraq, and Kuwait,
whereas the focus of the Special Inspector General for Iraq Reconstruction is limited to
Iraq. The AFAA has no permanent presence in Southwest Asia; however, it uses about
10 percent of available auditors per year on GWOT-related audits in the United States


69
     We define expeditionary workforce as mobile personnel dedicated to a specific mission and deployable
     to worldwide locations to conduct oversight to complement permanent workforce efforts.


                                                     28
Air Forces Central overseas area of responsibility. The audit work is accomplished by
using 24 person temporary teams twice a year to perform mobile audits for 7 to 8 weeks.

Coordination Groups. The DoD OIG is the lead oversight agency for accountability in
DoD and, as such, is committed to maintaining an effective working relationship with
other oversight organizations to minimize duplication of efforts and to provide more
comprehensive coverage. Effective interagency coordination, collaboration, and
partnerships within the oversight community are essential to providing comprehensive
reviews of wartime expenditures to identify whether critical gaps exist, and then to
recommend actions to close those gaps.

        SWA Joint Planning Group. The DoD OIG has jointly established and chairs
an intra- and interagency Southwest Asia Joint Planning Group that meets quarterly. The
Group provides oversight of fraud, waste, abuse, and criminal activities in the Southwest
Asia region. The Southwest Asia Joint Planning Group provides a chance for
collaboration and team work with organizations engaged in this effort, including the
Military Inspectors General and Service Auditors General, Combatant Commands
Inspectors General, DCAA, DFAS, DCMA, the Inspectors General of State and the U.S.
Agency for International Development, SIGIR, and GAO. The mission of the Southwest
Asia Joint Planning Group is to better coordinate and integrate oversight activities in the
region. The Southwest Asia Joint Planning Group leads the coordination and oversight
required to identify and recommend improved mission support to military units
conducting operations.

               Afghanistan Working Group. A subgroup of the Southwest Asia Joint
Planning Group is the Afghanistan Working Group. The DoD OIG, along with the GAO,
the Inspectors General of State, and the U.S. Agency for International Development,
established the Working Group to minimize the impact on forward command operations,
deconflict overlapping and duplicate oversight requests, and facilitate the exchange of
oversight information related to Afghanistan. The DoD OIG, as the DoD representative,
also incorporates the ongoing and planned Afghanistan-related oversight efforts of the
Service Auditors General into the Working Group. The Afghanistan Working Group has
convened to discuss ongoing, planned, and completed projects that address issues related
to Afghanistan operations. This group has briefed congressional committees and
members of the ongoing, planned, and completed Afghanistan oversight projects.

               Iraq Inspectors General Council. In conjunction with the Southwest
Asia Joint Planning Group, the DoD OIG also participates in the Iraq Inspectors General
Council chaired by SIGIR to minimize the impact on forward command operations,
deconflict overlapping and duplicate oversight requests, and facilitate the exchange of
oversight information unique to Iraq.

The DoD OIG provides an overview of the DoD oversight community in its Semiannual
Reports 70 to Congress. The DoD OIG Semiannual Report includes a chapter on the DoD
oversight community’s efforts for GWOT and Southwest Asia. Please see
http://www.dodig.mil/sar/index.html for our published Semiannual Reports to Congress,
including DoD oversight community’s efforts on GWOT and Southwest Asia.




70
     The DoD OIG issues the Semiannual Report to Congress in accordance with the Inspector General Act
     of 1978, as amended.


                                                    29
DoD OIG Initiatives
The DoD IG is committed to supporting the GWOT and the needs of the men and women
fighting this war. Overall, the DoD IG is responsible for providing oversight to more
than $655 billion in funds dedicated for the GWOT. The DoD OIG identifies and helps
correct critical mission support problems that impact OEF and OIF. The DoD IG has
established the following GWOT-related goals:

   •   Goal 1 – Increase the DoD OIG presence in Southwest Asia to work on priority
       issues directly supporting efforts for OEF and OIF.

   •   Goal 2 – Expand coverage of the DoD GWOT-related programs and operations
       by providing oversight in fundamental areas: contract surveillance, financial
       management , accountability of resources, as well as training and equipping of
       personnel and developing a logistics sustainment base.

   •   Goal 3 – Increase efforts to prevent the illegal transfer of strategic technologies
       and U.S. Munitions List items to prohibited nations, terrorist organizations, and
       other criminal enterprises.

Besides developing a comprehensive plan for a series of audits as required by the
FY 2008 National Defense Authorization Act, Section 842, “Investigation of Waste,
Fraud, and Abuse in Wartime Contracts and Contracting Processes in Iraq and
Afghanistan,” January 28, 2008, the DoD OIG initiated several other actions to support
OEF and OIF. The DoD OIG established field offices in four countries in Southwest
Asia, created an expeditionary workforce, and participated in interagency focus groups.
To accomplish its oversight mission, the DoD OIG has adopted a strategy that is based on
maintaining the right-size presence in theater but also recognizes that much of its work
can be done out of Iraq and Afghanistan. An important part of the DoD OIG oversight
effort is to improve interservice and interagency coordination and collaboration to
minimize duplication of effort and ensure that DoD OIG has only the staff needed in
theater to accomplish the mission.

Southwest Asia Field Offices. The DoD OIG has established field offices in
Afghanistan, Iraq, Kuwait, and Qatar and continues key placement of DoD OIG
personnel in Southwest Asia. DoD OIG presence facilitates timely reviews and reporting
of results in theater and minimizes disruption to the warfighter.

Workforce. The DoD OIG has adopted an expeditionary workforce model to support
efforts throughout all of Southwest Asia. The DoD OIG has core staff forward deployed
at all times. The core contingent is composed of individuals serving deployments of 6 to
12-months. Expeditionary team members deploy for as long as needed to complete the
review.

Panel on Contracting Integrity. The DoD OIG participates in the DoD Panel on
Contracting Integrity. Established under Section 813 of the FY 2007 National Defense
Authorization Act, the Panel is chaired by the Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics to conduct reviews of DoD progress made in
eliminating areas of vulnerability in the Defense contracting system. The DoD OIG is a
member of the overall Panel on Contracting Integrity, a member of the subcommittee on
Adequate Pricing, and is Chair of the Procurement Fraud Indicators subcommittee. The
Procurement Fraud Indicators subcommittee is identifying what these indicators are and
how they should best be addressed and used for the contracting/acquisition workforce.



                                            30
GWOT Cost of War Senior Steering Group. The DoD OIG is an invited observer to
the GWOT Cost of War Senior Steering Group that DoD established on February 26,
2007, to improve and standardize cost of war reporting. Attending the Senior Steering
Group meetings helps the DoD OIG remain apprised of DoD efforts for cost of war
reporting and furthers its oversight regarding financial aspects of GWOT to ensure
timeliness and value to the DoD.

Federal Bureau of Investigation Joint Terrorism Task Forces. As of March 2008, the
DoD OIG has personnel supporting more than 40 joint terrorism task forces, full-time or
part-time. These task forces were formed to maximize interagency cooperation and
coordination by creating cohesive units capable of addressing both international and
domestic terrorism.

National Procurement Fraud Task Force. The DoD OIG has been a member of the
National Procurement Fraud Task Force since 2006. This task force promotes the
prevention, early detection, and prosecution of procurement fraud.

International Contract Corruption Task Force. The DoD OIG is a member of the
International Contract Corruption Task Force. DoD OIG personnel are assigned full-time
to the task force’s Joint Operations Center. The International Contract Corruption Task
Force was formed to specifically target fraud and corruption involving Southwest Asia.
The primary goal of the task force is to combine the resources of multiple investigative
agencies and to partner with the Department of Justice to effectively and efficiently
investigate and prosecute cases of contract fraud and public corruption related to U.S.
Government spending in Iraq, Kuwait, and Afghanistan.

DFAS-Rome, New York Project. The DoD OIG initiated this proactive effort to
analyze more than $10 billion in payment vouchers related to U.S. Army purchases in
Iraq. The vouchers as of March 2008, were stored at DFAS-Rome, New York. This
DoD OIG effort includes the Defense Criminal Investigative Service, DoD OIG
Auditing, AAA, DCAA, and the Federal Bureau of Investigation.

Army Audit Agency Initiatives
Since June 2002, AAA has been actively involved in audit work in support of OEF and
OIF. AAA maintains a significant presence in the CENTCOM area of responsibility to
assist commanders in GWOT and has continuously had between 10 to 30 auditors
deployed in Afghanistan, Iraq, and Kuwait since May 2005.

Audits in theater have focused primarily on logistics and contracting issues. Since the
beginning of OEF and OIF, AAA has issued 31 reports addressing various aspects of
Logistics Civil Augmentation Program (LOGCAP) operations, and 40 other reports
addressing issues such as logistics, military pay, and fund management.

In June 2007, the AAA Auditor General accompanied a congressional delegation to Iraq
and Kuwait that assessed contracting operations in theater. The delegation invited the
AAA Auditor General because of the Auditor General’s testimony to the Senate Armed
Services Committee on April 19, 2007, about the AAA LOGCAP audit work. The
delegation met with top Army officials and key representatives from the oversight
community.

Currently, AAA is conducting audits in Afghanistan, Iraq, and Kuwait of contracting
operations, retrograde operations, container management, and accountability of
contractors on the battlefield. This work in theater stems from requests from the


                                            31
Secretary of the Army; the Commander, Multi-National Force—Iraq; U.S. Army
Criminal Investigation Command; the Commanding General, Third U.S. Army and U.S.
Army Forces Central Command; and the Commander, Joint Contracting Command—Iraq
and Afghanistan.

AAA has been proactive in helping senior Army leadership improve contracting
operations in Southwest Asia.

   •   At the request of the Secretary of the Army, AAA assessed contracting operations
       at the Kuwait Contracting Office. Essentially, AAA recreated contracting events
       associated with the operation and oversight of the Office from FY 2002 through
       FY 2007. The review identified contracting weaknesses and provided the
       Secretary with critical information needed to assess whether personnel with
       oversight responsibilities over the Office’s operations performed their duties
       properly. The Secretary used the results of the review to initiate immediate
       corrective actions in Army contracting operations for current and future wartime
       contingencies. Moreover, the results were instrumental in the Secretary
       establishing the Army Contracting Task Force.

   •   AAA materially assisted the operations of the Army Contracting Task Force
       during FY 2008. Task force members reviewed a statistical sampling of contracts
       awarded by the Kuwait Contracting Office between FY 2003 and FY 2006 that
       were valued at more than $25,000. To assist the task force, AAA provided the
       sample size, evaluated the methodology task force members used to review
       contracts and assess fraud indicators, and provided task force members with
       training on contract fraud and how to identify fraud indicators.

AAA has also been extremely active in assisting criminal investigators and Federal
attorneys in support of contract fraud cases related to Southwest Asia operations.

   •   AAA provided, and continues to provide, extensive support to the International
       Contract Corruption Task Force. This task force includes members from
       U.S. Army Criminal Investigation Command, Defense Criminal Investigative
       Service, DCAA, DoD OIG, the Federal Bureau of Investigation, Department of
       Justice, and SIGIR. To support this task force, AAA extracted data from Army
       automated contracting and financial systems. AAA organized this information
       into usable databases, provided memorandums describing the scope and
       methodology used to extract the data from the systems, and trained task force
       members on how to use the contract and contract payment databases as an
       investigative tool.

   •   AAA provided, and continues to provide, extensive support to the Department of
       Justice’s National Procurement Fraud Task Force to help obtain indictments and
       prosecutions related to procurement fraud cases in Southwest Asia. AAA
       obtained documentary evidence and analyzed data needed to prosecute several
       major procurement fraud cases. AAA also provided the task force a compilation
       of all the contract and payment information available in Army and DFAS
       automated systems to support contract and payment amounts for multiple
       contracts. These contracts were at the center of a nationally publicized
       procurement fraud case involving about $14 million of kickbacks allegedly paid
       to a military contracting officer.

   •   Currently, AAA is performing a major data-mining effort involving vendor
       payments in Kuwait. This effort is geared to identify potentially fraudulent

                                           32
       payments and control weaknesses in automated and manual contract payment
       processes. This work supports both the International Contract Corruption Task
       Force and the Army Task Force on Contracting.

Establishing the Expeditionary Support Audit Team. In October 2007, AAA
realigned its staff and established the Expeditionary Support Audit Team to enhance
audit support for overseas contingency operations. Establishing the team enabled AAA
to improve its efficiency and responsiveness to Army leaders and combatant commanders
on the ground in Southwest Asia in support of OEF and OIF.

AAA built the team exclusively from volunteers willing to serve in a deployed
environment. The team consists of about 40 full-time (core) members, half of whom are
deployed to Southwest Asia at any given time. The AAA continuously augments the
core team with about 5 to 10 additional volunteers who deploy and work with the core
members for 180-day assignments. This enables AAA to continuously operate with
about 25 to 30 deployed staff and provide timely, relevant audit service in Southwest
Asia. In FY 2008 and FY 2009, the Expeditionary Support Audit Team will concentrate
its efforts in Southwest Asia on contracting and logistics operations.

Coordinating and Sharing with Other Oversight Activities. Senior AAA officials
have actively participated in the DoD Southwest Asia Joint Audit Planning Group since
its inception. The planning group provides a forum for DoD auditors, inspectors, and
investigators to share ideas and audit schedules to maximize coverage in the theater while
avoiding duplication of effort. The AAA has also loaned auditors to assist the DoD OIG
on several audit initiatives in Iraq. Likewise, AAA has maintained close coordination
with the SIGIR. AAA is an active member of the Iraq Inspectors General Council that
meets quarterly to discuss and coordinate audit coverage in Iraq. AAA also routinely
shares audit information with senior Army officials, including U.S. Army Corps of
Engineers Gulf Region Division personnel in Iraq, through regular teleconferences
convened by the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology).

Army Contracting Campaign Plan Task Force. The Army Contracting Campaign
Plan Task Force is a proactive Army response to weaknesses identified in Army
acquisition and contracting processes and to the findings and recommendations of the
Gansler Commission on Army Acquisition and Program Management in Expeditionary
Operations and the Army Contracting Task Force. The Army Contracting Campaign
Plan Task Force is led by the Assistant Military Deputy to the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology). Its mission is to operationalize and
institutionalize Army Contracting to provide an Army-wide standard for global
contracting capability in support of warfighter needs across the full spectrum of military
operations.

The Acting Under Secretary of the Army established the Army Contracting Campaign
Plan Task Force and the task force held its “kick-off” meeting on March 26, 2008. The
task force is ongoing and is supported by acquisition, contracting, and support personnel
participating in working-level and decision-making forums such as a two-star General
Officer Steering Committee, Council of Colonels, and individual Implementation
Planning Teams. AAA representatives have met with the task force director and he has
requested that AAA provide independent and objective audit and attestation services as
needed to support the development and implementation of the Army Contracting
Campaign Plan. AAA personnel also attended the initial meetings of the Implementation
Planning Team and the Council of Colonels.


                                            33
Air Force Audit Agency Initiatives
Since October 2005, AFAA has taken several initiatives in support of OEF and OIF.
First, AFAA realigned branches of the Air and Space Operations Division to assign a
program manager and four audit managers the responsibility to perform Air Force-wide
audits focusing on operations in the U.S. Air Forces Central area of responsibility. As of
April 2008, the branch has performed 11 multi-site audits focused exclusively or
primarily on U.S. Air Forces Central operations. This branch also assisted other AFAA
divisions in performing five multi-site audits with U.S. Air Forces Central area of
responsibility involvement in functional areas such as health care, environmental and
engineering, and supply.

Second, AFAA developed expeditionary audit teams to provide audit services in the U.S.
Air Forces Central area of responsibility. The AFAA deploys an expeditionary audit
team of volunteer civilian auditors into the U.S. Air Forces Central area of responsibility
about twice a year. The audit team, consisting of 12 to16 auditors and 3 team chiefs,
deploys for about 45 days and performs audits at 5 to 7 area-of-responsibility
installations. The AFAA will deploy its fifth expeditionary audit team in June 2008.
Audits from the past four expeditionary audit teams have resulted in 72 installation-level
audit reports and 17 Air Force audit reports, and have identified more than $75 million in
potential monetary benefits.

Finally, AFAA participates in the Southwest Asia Joint Planning Group. The group’s
initial meeting was April 2007 and convenes approximately quarterly. The Planning
Group coordinates various audit activities impacting Southwest Asia. During the
meetings, representatives from the GAO, DoD OIG, DCAA, SIGIR, and the Service
audit agencies, briefed recently completed, ongoing, and planned audits pertaining to
operations in the CENTCOM area of responsibility. Attendees included the Combatant
Command Inspectors Generals from Special Operations Command, Pacific Command,
and CENTCOM. Information discussed during the meetings provided valuable input to
AFAA audit efforts in the U.S. Air Forces Central area of responsibility.

Defense Contract Audit Agency Initiatives
To better inform the contracting community on the services DCAA can provide during
contingency contracting operations, DCAA coordinated closely with DAU
representatives to revise DAU Course 234, Contingency Contracting. DCAA also
provided extensive support for coordinating the draft Expeditionary Contracting Policy,
which establishes uniform policies and procedures for DoD contingency contracting
officers deploying to a contingent environment. In addition, DCAA provided input and
coordinated on the recently issued Joint Contingency Contracting Handbook, a pocket-
sized handbook and accompanying compact disk, that provides the essential information
and tools to operate and train effectively in a contingency contracting environment.

SIGIR Initiatives
The Special Inspector General for Iraq Reconstruction has two initiatives to assist in
challenges in OIF. Specifically, SIGIR is capturing its own lessons learned as well as
performing capping reports.

       Lessons Learned. SIGIR is carrying out an initiative to capture the lessons
learned in Iraq reconstruction. The initiative is designed to enhance continuing work in
Iraq and to inform future U.S. reconstruction efforts. On each of these issues, SIGIR is
gathering information from extensive research and interviews, collating and distilling the
information into white papers, and gathering panels of experts in three forums to evaluate


                                            34
the findings and make recommendations. The Lessons Learned Initiative focuses on
three key subject areas:

       •   “Iraq Reconstruction: Lessons in Human Capital Management,” February
           2006, is the product of SIGIR audits, other research, and the Lessons Learned
           Forum held in September 2005 at Johns Hopkins University’s Washington,
           D.C., campus. The document identifies and discusses four key components of
           effective human resource management: policy alignment, workforce planning,
           recruitment, and continuity.

       •   “Iraq Reconstruction: Lessons in Contracting and Procurement,” July 2006,
           begins by examining contracting activity early in the Iraq program and traces
           its evolutionary development through the effort’s succeeding phases. The
           concluding section lays out a series of key lessons followed by
           six recommendations for improving the U.S. Government’s capacity to
           support and execute contracting and procurement in contingency
           environments.

       •   “Iraq Reconstruction: Lessons in Program and Project Management,” March
           2007, focuses on program and project management during the U.S.–led
           reconstruction mission, and tracks the evolution of the three organizations
           responsible for providing the strategic oversight and tactical direction of the
           reconstruction effort: the Office of Reconstruction and Humanitarian
           Assistance, the Coalition Provisional Authority, and the U.S. Mission-Iraq.

        Capping Reports. As reported in its January 30, 2008, report, SIGIR plans
to present a series of performance audit capping reports that summarize the
accomplishments in each of these reconstruction sectors:

       •   security and law enforcement;
       •   justice, public safety infrastructure, and civil society;
       •   electric;
       •   oil;
       •   water resources and sanitation;
       •   transportation and telecommunications;
       •   roads, bridges, and construction;
       •   private sector development; and
       •   education, refugees, human rights, democracy, and governance.

These reports will build on the information obtained in the focused contracting reviews
conducted in FY 2008 and provide detailed descriptions of the projects completed in each
sector and the associated costs. SIGIR will also assess how well the Iraqis are
maintaining the projects and assess the impact of each project on local communities.




                                            35
Appendix A. Scope and Methodology
The Defense oversight community—the DoD Office of Inspector General (OIG), the
Army Audit Agency (AAA), the Naval Audit Service, the Air Force Audit Agency
(AFAA), and the Special Inspector General for Iraq Reconstruction (SIGIR) — and the
Government Accountability Office (GAO) issued 314 reports and testimonies
(302 unclassified and 12 classified) beginning FY 2003 through FY 2007 that support
Operation Enduring Freedom (OEF) or Operation Iraqi Freedom (OIF).

This non-audit service report summarizes 302 OEF and OIF related reports and
testimonies from FY 2003 through FY 2007 issued and given by the Defense oversight
community and GAO. We reviewed the OEF and OIF related reports and testimonies
obtained, but we did not review the supporting documentation for any of the reports.
Based on our review, we created functional areas (main categories) to categorize the
reports and testimonies. The categories resulting from our review of the 314 OEF and
OIF-related reports and testimonies issued by the audit agencies are:
        • Contract Management
        • Logistics
        • Financial Management
        • Other
The team then reviewed the causes of the recommendations in the unclassified reports in
order to determine systemic challenges in the reports. See Appendix C for the definitions
the team used for each category. The categories resulting from our review of causes of
the recommendations are as follows.
        • Contract Management
            - Contract Administration
            - Policy and Procedure
            - Sourcing
            - Requirements
            - Other/Strategic
        • Logistics
            - Policy and Procedure
            - Accountability
            - Sustainability
            - Requirements
            - Other
        • Financial Management
            - Overall Financial Management
            - Internal Controls
            - Obligations
            - Execution
        • Other
            - Policy and Procedure
            - Planning
            - Accountability
            - Other




                                           36
The audit team also counted the recommendations in each report and determined the
status of each recommendation. We obtained the status of the DoD OIG and GAO
recommendations from the Defense Automated Management Information System; the
AAA, AFAA, and Naval Audit Service status from representatives at those agencies; and
the SIGIR status from the SIGIR January 30, 2008, quarterly report The audit team also
validated the status of GAO recommendations obtained from the Defense Automated
Management Information System with GAO representatives.

We then sent the results of categorizing the causes of the recommendations into issue
areas, the number of recommendations in each report, and the status of those
recommendations to GAO, DoD OIG, AAA, Naval Audit Service, AFAA, and SIGIR for
them to verify. Based on the other agencies’ comments to our initial results, we updated
our initial categorizations of the causes, number of recommendations, and status of the
recommendations for the reports and testimonies.

Using the audit agencies’ input of the categorization of the 302 unclassified reports and
testimonies, the team reviewed the reports in the respective categories to determine
whether any systemic or recurring challenges in the categorized areas exist. The team
also reviewed the status of the recommendations in those reports and determined whether
DoD took appropriate action to address the 983 recommendations by determining how
many recommendations remain open at the end of each fiscal year.

We sought out DoD initiatives regarding Contract Management, Logistics, and Financial
Management challenges in OEF and OIF. We contacted the Office of the Deputy Under
Secretary of Defense for Acquisition, Technology, and Logistics; OUSD(C); Executive
Director for LOGCAP Program, Army Sustainment Command; DFAS GWOT Program
Management Office; and DCAA. We also sought out initiatives by the DoD oversight
community and contacted AAA, Naval Audit Service, AFAA, DCAA, and SIGIR.

Use of Computer-Processed Data. We relied on data that were entered into the Defense
Automated Management Information System to determine the status of the DoD OIG and
GAO report recommendations. We did not perform any tests of the validity of the data
manually entered into the Defense Automated Management Information System by DoD
OIG personnel when compiling information for this report.




                                           37
Appendix B. OEF and OIF Reports and
Testimonies FY 2003 through FY 2007
From FY 2003 through FY 2007, the Defense oversight community and GAO have
issued 314 reports and testimonies that relate to Operations Enduring Freedom or Iraqi
Freedom. Where possible, hyperlinks to the complete reports are provided. The reports
and testimonies are listed by agency, by issue date. The twelve classified reports are
marked with an asterisk (*).


Army Audit Agency
The Army Audit Agency issued 77 audit reports or testimonies pertaining to Operations
Enduring Freedom and Iraqi Freedom. To obtain copies of the Army Audit Agency
reports, visit their Web site at https://www.aaa.army.mil. The site is available only to
military domains and the Government Accountability Office. Other activities may
request copies of Agency reports by contacting the Army Audit Agency Audit
Coordination and Followup Office at 703-693-5679. Where possible, hyperlinks to the
complete Army Audit Agency reports are provided below.

Army Audit Agency Report No. A-2007-0204-ALL, “Audit of Defense Base Act
Insurance for the Logistics Civil Augmentation Program, Audit of Logistics Civil
Augmentation Program Operations in Support of Operation Iraqi Freedom,”
September 28, 2007

Army Audit Agency Report No. A-2007-0215-FFS, “Contractor Support and
Mobilization Stations - Ft. Bragg, North Carolina,” September 18, 2007

Army Audit Agency Report No. A-2007-0210-FFS, “Contractor Support and
Mobilization Stations - Ft. Carson, Colorado,” September 10, 2007

Army Audit Agency Report No. A-2007-0191-FFM, “Agreed-Upon Procedures
Attestation of the Results of the 2007 National Defense Authorization Act Audit on
Wounded in Action Soldier Pay Accounts, Attestation Report,” August 15, 2007

Army Audit Agency Report No. A-2007-0184-FFM, “Civilian Pay in Support of
Operation Enduring Freedom and Operation Iraqi Freedom,” August 15, 2007

Army Audit Agency Report No. A-2007-0190-ALM, “Resource Requirements for Reset
(FOUO),” August 8, 2007

Army Audit Agency Report No. A-2007-0149-ALL, “Audit of the Army's Theater
Linguist Program in Afghanistan, Operation Enduring Freedom,” July 23, 2007

Army Audit Agency Report No. A-2007-0152-ALR, Time-Sensitive Report, Audit of
Container Detention Billing for Global War on Terrorism, June 14, 2007

Army Audit Agency Report No. A-2007-0131-ALA, “Rapid Equipping Force Initiative,”
May 18, 2007



                                           38
Army Audit Agency Report No. A-2007-0126-All, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom-Army Reserve Equipment,”
May 9, 2007

Army Audit Agency Report No. A-2007-0104-All, “Summary Audit Report on the Cost-
Effectiveness of Transitioning Work Under the Logistics Civil Augmentation Program
Contingency Contract to Sustainment Contracting, Audit of Logistics Civil
Augmentation Program Operations in Support of Operation Iraqi Freedom,” March 23,
2007

Army Audit Agency Report No. A-2007-0093-ALL, “Audit of the Cost-Effectiveness of
Transitioning Selected Functions Performed at the Theater Distribution Center (Task
Order 87) From Contingency to Sustainment Contracting, Audit of Logistics Civil
Augmentation Program Operations in Support of Operation Iraqi Freedom,” March 9,
2007

Army Audit Agency Report No. A-2007-0088-ALE, “Reset of Aviation Assets; U.S.
Army Aviation and Missile Life Cycle Management Command (FOUO),” August 8,
2007

Army Audit Agency Report No. A-2007-0075-ALL, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom,” February 15, 2007

Army Audit Agency Report No. A-2007-0071-ALE, “Reconstitution of Secondary
Items,” February 12, 2007

Army Audit Agency Report No. A-2007-0061-ALL, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom-Army Reserve Equipment,”
January 30, 2007

Army Audit Agency Report No. A-2007-0053-ALE, “Reconstitution—Supply
Management Operations in U.S. Army, Europe and Seventh Army,” January 19, 2007

Army Audit Agency Report No. A-2007-0052-ALE, “Reconstitution—Direct Support
and Below Maintenance in U.S. Army, Europe and Seventh Army,” January 17, 2007

Army Audit Agency Report No. A-2007-0040-ALL, “Audit of Procedures for Managing
the Overaged Reparable Items List at the Tactical Wheeled Vehicle Refurbished Center,”
January 16, 2007

Army Audit Agency Report No. A-2007-0039-FFP, “Global War on Terrorism
Supplemental Funding,” December 21, 2006

Army Audit Agency Report No. A-2007-0019-ALL, “Distribution Functions, Audit of
Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” November 21, 2006

Army Audit Agency Report No. A-2007-0011-ALL, “Nontactical Vehicle Usage in the
Iraq Area of Operations, Audit of Logistics Civil Augmentation Program Operations in
Support of Operation Iraqi Freedom,” November 16, 2007

Army Audit Agency Report No. A-2007-0015-ALE, “Maintenance of Left Behind
Equipment in U.S. Army, Europe and Seventh Army,” October 31, 2006


                                          39
Army Audit Agency Report No. A-2007-0005-FFP, “Audit of Logistics Support for
Operation Enduring Freedom-Philippines,” October 12, 2006

Army Audit Agency Report No. A-2006-0254-ALL, “Audit of Procedures for
Transferring Property During the Base Closure Process in Support of Operation Iraqi
Freedom,” September 29, 2006

Army Audit Agency Report No. A-2006-0237-ALE, “Funding Reset of Aviation Assets
in Europe,” September 29, 2006

Army Audit Agency Report No. A-2006-0253-ALL, “Cost-Effectiveness of
Transitioning the General Support Supply Activity (Task Order 87) From Contingency to
Sustainment Contracting, Audit of Logistics Civil Augmentation Program Operations in
Support of Operation Iraqi Freedom,” September 28, 2006

Army Audit Agency Report No. A-2006-0246-ALL, “Cost-Effectiveness of
Transitioning Task Order 66-Kuwait Naval Base Camp Support From Contingency to
Sustainment contracting, Audit of Logistics Civil Augmentation Program Operations In
Support of Operation Iraqi Freedom-Phase II (Kuwait),” September 27, 2006

Army Audit Agency Report No. A-2006-0233-ALL, “Clothing Issue Facilities, Audit of
Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” September 22, 2006

Army Audit Agency Report No. A-2006-0188-ALL, “Asset Visibility in Support of
Operation Iraqi Freedom and Operation Enduring Freedom,” August 11, 2006

Army Audit Agency Report No. A-2006-0168-ALL, “Report on the Subsistence Prime
Vendor Contract, Audit of Logistics Civil Augmentation Program Operations in Support
of Operation Iraqi Freedom,” August 4, 2006

Army Audit Agency Report No. A-2006-0158-ALL, “Report on Class IX (Aviation)
Warehouse Staffing, Camp Anaconda, Audit of Logistics Civil Augmentation Program
Operations in Support of Operation Iraqi Freedom,” July 11, 2006

Army Audit Agency Report No. A-2006-0136-ALL, “Management Controls Over
Offline Purchases,” June 13, 2006

Army Audit Agency Report No. A-2006-0077-ALE, “Reconstitution—General Support
Maintenance Within U.S. Army, Europe and Seventh Army,” June 2, 2006

Army Audit Agency Report No. A-2006-0099-ALL, “Audit of Program Management in
the Iraq Area of Operations, Audit of Logistics Civil Augmentation Program Operations
in Support of Operation Iraqi Freedom,” April 25, 2006

Army Audit Agency Report No. A-2006-0067-FFM, “Military Pay for Operation
Enduring Freedom/ Operation Iraqi Freedom–Active Component,” April 5, 2006

Army Audit Agency Report No. A-2006-0091-ALL, “Audit of Management of the
Theater Transportation Mission (Task Order 88), Audit of Logistics Civil Augmentation
Program Operations in Support of Operation Iraqi Freedom,” April 4, 2006




                                          40
Army Audit Agency Report No. A-2006-0090-ALE, “Followup Audit II of the
Commanders’ Emergency Response Program and Quick Response Fund,” March 31,
2006

Army Audit Agency Report No. A-2006-0083-ALL, “Audit of Retrograde Operations
(Task Order 87), Audit of Logistics Civil Augmentation Program Operations in Support
of Operation Iraqi Freedom,” March 21, 2006

Army Audit Agency Report No. A-2006-0081-ALL, “Audit of Unliquidated Obligations,
Audit of Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” March 17, 2006

Army Audit Agency Report No. A-2006-0073-ALL, “Management of Force Provider
Modules: Logistics Civil Augmentation Program,” March 20, 2006

Army Audit Agency Report No. A-2006-0046-ALA, “Fund Accountability for Fiscal
Year 2004 Iraq Relief and Reconstruction Funds: Project and Contracting Office,
Washington, DC,” January 31, 2006

Army Audit Agency Report No. A-2006-0047-ALL, “Base Closure Process in the Iraq
Area of Operations,” January 11, 2006

Army Audit Agency Report No. A-2006-0038-FFM, “Reserve Component Pay-OIF/OEF
(FOUO),” May 25, 2006

Army Audit Agency Report No. A-2006-0022-ALL, “Logistics Civil Augmentation
Program: U.S. Army Materiel Command,” November 28, 2005

Army Audit Agency Report No. A-2006-0018-ALL, “Logistics Civil Augmentation
Program Support Unit Training: Logistics Civil Augmentation Program Support Unit
Headquarters Fort Belvoir, Virginia,” November 17, 2005

Army Audit Agency Report No. A-2005-0332-ALE, “Followup Audit of the
Commanders’ Emergency Response Program and Quick Response Fund: Multi-National
Security Transition Command-Iraq,” September 30, 2005

Army Audit Agency Report No. A-2005-0264-FFP, “Audit of Military Pay in Support of
Operation Enduring Freedom/Operation Iraqi Freedom,” August 23, 2005

Army Audit Agency Report No. A-2005-0250-ALE, “Class IX Spare Parts—Operation
Iraqi Freedom,” August 15, 2005

Army Audit Agency Report No. A-2005-0197-ALE, “Asset Visibility and Container
Management—Operation Iraqi Freedom,” July 5, 2005

Army Audit Agency Report No. A-2005-0206-FFG, “Validation of the Statement of
Accountability, Attestation of Disbursing Station Symbol Number 8551: 336th Finance
Command, Camp Arifjan, Kuwait,” June 29, 2005

Army Audit Agency Report No. A-2005-0194-ALA, “Program Management in Support
of Iraq Reconstruction: Project and Contracting Office, Washington, DC,” May 26, 2005




                                          41
Army Audit Agency Report No. A-2005-0177-ALS, “Internal Controls Over Cargo
Container Payments: Military Surface Deployment and Distribution Command,” May
12, 2005

Army Audit Agency Report No. A-2005-0173-ALE, “Commanders’ Emergency
Response Program and Quick Response Fund: Multi-National Security Transition
Command-Iraq,” May 2, 2005

Army Audit Agency Report No. A-2005-0172-ALE, “Functionality of Logistics
Automated Systems—Operation Iraqi Freedom,” April 27, 2005

Army Audit Agency Report No. A-2005-0168-ALE, “Theater Distribution Capabilities—
Operation Iraqi Freedom,” April 26, 2005

Army Audit Agency Report No. A-2005-0078-FFG, “Coalition Provisional Authority
Travel Process,” March 2, 2005

Army Audit Agency Report No. A-2005-0095-FFG, “Vested and Seized Assets,
Operation Iraqi Freedom,” February 16, 2005

Army Audit Agency Report No. A-2005-0043-ALE, “Logistics Civil Augmentation
Program in Kuwait,” November 24, 2004

Army Audit Agency Report No. A-2005-0052-ALS, “Validation of Material Weakness
In-transit Visibility Policies and Standards,” November 23, 2004

Army Audit Agency Report No. A-2004-0463-FFC, “FY 03 Supplemental Funds and
Cash Flow,” August 27, 2004

Army Audit Agency Report No. A-2004-0438-AML, “Definitization of Task Orders -
Audit of Logistics Civil Augmentation Program,” August 12, 2004

Army Audit Agency Report No. A-2004-0426-IMU, “Audit of Base Camp Commercial
Communications,” July 28, 2004

Army Audit Agency Report No. A-2004-0305-FFG, “Time Sensitive Report, Audit of
Vested and Seized Assets, Operation Iraqi Freedom,” May 18, 2004

Army Audit Agency Report No. A-2004-0271-IMU, “Observations of Mine Clearing
Operations Made at Bagram Airfield, Afghanistan,” May 3, 2004

Army Audit Agency Report No. A-2004-0243-IMU, “Operation Enduring Freedom--
Base Camp Construction and Master Plan,” April 15, 2004

Army Audit Agency Report No. A-2004-0156-IMU, “Operation Enduring Freedom--
Logistics Civil Augmentation Program,” February 27, 2004

Army Audit Agency Report No. A-2004-0066-IMU, “Operation Enduring Freedom-
Management and Use of Shipping Containers,” December 9, 2003

Army Audit Agency Report No. A-2004-0053-IMU, “Operation Enduring Freedom-
Management of Class I Supplies,” December 5, 2003



                                        42
Army Audit Agency Report No. A-2004-0033-IMU, “Management of Resources,”
October 23, 2003

Army Audit Agency Report No. A-2004-0013-IMU, “Audit of Operation Enduring
Freedom-Class IX Aviation Spare Parts,” October 7, 2003

Army Audit Agency Report No. A-2003-0400-IMU, “Audit of Operation Enduring
Freedom - Class IX Aviation Spare Parts,” August 19, 2003

Army Audit Agency Report No. A-2003-0371-IMU, “Audit of Operation Enduring
Freedom-Use of Automatic Identification Technology for In-Transit Visibility,” July 24,
2003

Army Audit Agency Report No. A-2003-0370-IMU, “Audit of Operation Enduring
Freedom - In-Transit Visibility,” July 24, 2003

Army Audit Agency Report No. A-2003-0324-FFF, “Mobilization and Pay Record
Discrepancies in the Reserve Component,” June 30, 2003

Army Audit Agency Report No. A-2003-0294-IMU, “Operation Enduring Freedom-
Property Accountability,” June 2, 2003

Army Audit Agency Report No. A-2003-0110, “Logistics Civil Augmentation Program,
A-2003-0110-IMU,” December 31, 2002


Naval Audit Service
The Naval Audit Service issued one audit report pertaining to Operations Enduring
Freedom and Iraqi Freedom. To obtain copies of Naval Audit Service reports, please
contact the Naval Audit Service FOIA Office at (202) 433-5757 or by e-mail to
navaudsvc.foia@navy.mil.

Naval Audit Service Report No. N-2005-0018, “Marine Corps Systems Command
Contracts Supporting Operation Iraqi Freedom," December 22, 2004


Air Force Audit Agency
The Air Force Audit Agency issued 15 audit reports or testimonies pertaining to
Operations Enduring Freedom and Iraqi Freedom. Unrestricted Air Force Audit Agency
reports can be accessed at this Web site address:
https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml. Where possible, hyperlinks
to the complete Air Force Audit Agency reports are provided below. To obtain
releasable copies of Air Force Audit Agency reports, please fax your FOIA request to the
Air Force Audit Agency FOIA Manager at (703) 696-7776 or e-mail to
afaafoia@pentagon.af.mil.

Air Force Audit Agency Report No. F-2007-0008-FD3000, “Central Command Air
Forces Deployed Locations Government-Wide Purchase Card Program,” June 27, 2007




                                           43
Air Force Audit Agency Report No. F-2007-0007-FD3000, “Theater Battle Management
Core System-Unit Level,” June 8, 2007

Air Force Audit Agency Report No. F-2007-0006-FD4000, “Civilian Deployments,”
March 15, 2007

Air Force Audit Agency Report No. F-2007-0006-FD3000, “Central Command Air
Forces Deployed Locations Ground Fuels Management,” April 27, 2007

Air Force Audit Agency Report No. F-2007-0005-FD3000, “Central Command Air
Forces Deployed Locations Services Contract Management,” April 20, 2007

Air Force Audit Agency Report No. F-2007-0004-FC4000, “Deployed Assets,”
January 26, 2007

Air Force Audit Agency Report No. F-2006-0007-FD3000, “Central Command Air
Forces Deployed Locations Blanket Purchase Agreements,” August 21, 2006

Air Force Audit Agency Report No. F-2006-0006-FD3000, “Central Command Air
Forces Deployed Locations Cash Management,” August 3, 2006

Air Force Audit Agency Report No. F-2005-0058-FDE000, “Equipment Accountability
380th Air Expeditionary Wing Al Dhafra AB, United Arab Emirates,” June 1, 2005”

Air Force Audit Agency Report No. F-2005-0053-FDE000, “Blanket Purchase
Agreements 380th Air Expeditionary Wing Al Dhafra AB,” United Arab Emirates,
June 1, 2005

Air Force Audit Agency Report No. F-2005-0043-FDE000, “Equipment Accountability
379th Air Expeditionary Wing Al Udeid AB, Qatar,” April 1, 2005

Air Force Audit Agency Report No. F-2005-0035-FDE000, “Blanket Purchase
Agreements 1st Expeditionary Red Horse Group Al Udeid AB, Qatar,” March 14, 2005

Air Force Audit Agency Report No. F-2005-0011-FB1000, “Global War on Terrorism
Funds Management,” June 20, 2005

Air Force Audit Agency Report No. F-2004-0060-FDE000, “Small Arms 379th Air
Expeditionary Wing Al Udeid AB, Qatar,” July 1, 2004

Air Force Audit Agency Report No. F-2004-0057-FDE000, “Blanket Purchase
Agreement 379th Air Expeditionary Wing Al Udeid AB, Qatar,” June 22, 2004


DoD Inspector General
The DoD OIG issued 28 audit reports or testimonies pertaining to Operations Enduring
Freedom and Iraqi Freedom. To obtain electronic copies of DoD OIG reports and
testimonies, please visit http://www.dodig.mil/Audit/reports/index.html. Where possible,
hyperlinks to the complete DoD OIG reports are provided below.




                                          44
DoD OIG Testimony, “Accountability During Contingency Operations: Preventing and
Fighting Corruption in Contracting and Establishing and Maintaining Appropriate
Controls on Materiel,” September 19, 2007

DoD OIG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,”
June 27, 2007

DoD OIG Report No. D-2007-105, “United States Transportation Command Compliance
with DoD Policy on the Use of Commercial Sealift,” June 21, 2007

DoD OIG Testimony, “Trafficking in Persons,” June 21, 2007

DoD OIG Testimony “War Profiteering and Other Contractor Crimes Committed
Overseas,” June 19, 2007

DoD OIG Report No. D-2007-090, “Managing Prepositioned Munitions in the U.S.
European Command,” May 3, 2007

DoD OIG Testimony, “Investigations by the Office of the Inspector General, Department
of Defense, Concerning the Death of Corporal Patrick Tillman and the Rescue of Private
First Class Jessica Lynch,” April 24, 2007

DoD OIG Testimony, “Combating War Profiteering: Are We Doing Enough to
Investigate and Prosecute Contracting Fraud and Abuse in Iraq,” March 20, 2007

DoD OIG Report No. D-2007-064, “Implementation of the Commanders’ Emergency
Response Program in Afghanistan,” February 28, 2007

DoD OIG Report No. D-2007-060, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase II,” February 12, 2007

* DoD OIG Report No. D-2007-049, “Equipment Status of Deployed Forces Within the
U.S. Central Command” [CLASSIFIED, however, click here for an unclassified
summary] January 25, 2007

DoD OIG Testimony, “Audit of Reconstruction and Support Activities in Iraq,”
January 18, 2007

DoD OIG Report No. D-2007-030, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase I,” December 8, 2006

DoD OIG Report No. D-2007-010, “The Army Small Arms Program that Relates to
Availability, Maintainability, and Reliability of the Small Arms Support for the
Warfighter,” November 2, 2006

* DoD OIG Report No. D-2007-001, “Information Operations Activities in Southwest
Asia” [CLASSIFIED], October 6, 2006

DoD OIG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
October 28, 2005

DoD OIG Testimony “Iraq Reconstruction, Governance and Security Oversight,”
October 18, 2005


                                          45
DoD OIG Report No. D-2006-007, “Contracts Awarded to Assist the Global War on
Terrorism by the U.S. Army Corps of Engineers,” October 14, 2005

DoD OIG Report No. D-2005-095, “DoD Patient Movement System,” July 27, 2005

DoD OIG Report No. D-2005-045, “Emergency Supplemental Funding for the Defense
Logistics Agency” (FOUO), May 9, 2005

DoD OIG Report No. D-2005-053, “FY 2004 Emergency Supplemental Funding for the
Defense Information Systems Agency” (FOUO), April 29, 2005

DoD OIG Report No. D-2005-024, “DoD Management of Navy Senior Enlisted
Personnel Assignments in Support of Operation Iraqi Freedom,” December 15, 2004

* DoD OIG Report No. D-2004-090, “Defense Hotline Allegations Concerning C-130
Aircraft Use in the U.S. Central Command Area of Responsibility” [CLASSIFIED],
June 17, 2004

DoD OIG Report No. D-2004-086, “Management of Marine Corps Enlisted Personnel
Assignments in Support of Operation Iraqi Freedom,” June 16, 2004

DoD OIG Report No. D-2004-057, “Contracts Awarded for the Coalition Provisional
Authority by the Defense Contracting Command - Washington,” March 18, 2004

* DoD OIG Report No. D-2004-045, “Coalition Support Funds” [CLASSIFIED],
January 16, 2004

DoD OIG Report No. D-2003-070, “DoD Involvement in Export Enforcement Activities”
(FOUO), March 28, 2003

* DoD OIG Report No. D-2003-028, “Summary Report on Homeland Defense,
Chemical/Biological Defense, and Other Matters Related to Counter-Terrorist Military
Operations” [CLASSIFIED], November 25, 2002


Special Inspector General for Iraq Reconstruction
The Special Inspector General for Iraq Reconstruction issued 91 audit reports or
testimonies pertaining to Operations Enduring Freedom and Iraqi Freedom. To obtain
electronic copies of the reports or testimonies, please visit
http://www.sigir.mil/reports/audit.aspx.

SIGIR Report No. 07-005, “Fact Sheet on Sources and Uses of U.S. Funding Provided in
Fiscal Year 2006 for Iraq Relief and Reconstruction,” July 27, 2007

SIGIR Report No. 07-008, “Fact Sheet on the Roles and Responsibilities of U.S.
Government Organizations Conducting IRRF-funded Reconstruction Activities,”
July 26, 2007

SIGIR Report No. 07-003, “Cost-to-Complete Reporting for Iraq Reconstruction
Projects,” July 26, 2007




                                          46
SIGIR Report No. 07-014, “Status of the Provincial Reconstruction Team Program
Expansion in Iraq,” July 25, 2007

SIGIR Report No. 07-004, “Transferring Iraq Relief and Reconstruction Fund Capital
Projects to the Government of Iraq,” July 25, 2007

SIGIR Report No. 07-009, “Review of Bechtel’s Spending under Its Phase II Iraq
Reconstruction Contract,” July 24, 2007

SIGIR Report No. 07-007, “Status of U.S. Government Anticorruption Efforts in Iraq,”
July 24, 2007

 SIGIR Report No. 07-001, “Logistics Civil Augmentation Program Task Order
130: Requirements Validation, Government Oversight, and Contractor
Performance,” June 22, 2007

SIGIR Report No. 07-012, “Review of Iraq Relief and Reconstruction Fund Unmatched
Disbursements at the Department of State,” April 26, 2007

SIGIR Report No. 07-006, “Management of the Commander’s Emergency Response
Program in Iraq for Fiscal Year 2006,” April 26, 2007

SIGIR Report No. 07-002, “Status of the Advanced First Responder Network,” April 25,
2007

SIGIR Report No. 06-045, “Status of Ministerial Capacity Development in Iraq,”
January 30, 2007

SIGIR Report No. 06-044, “Fact Sheet on Major U.S. Contractors’ Security Costs
Related to Iraq Relief and Reconstruction Fund Contracting Activities,” January 30, 2007

SIGIR Report No. 06-043, “Review of Iraq Relief and Reconstruction Fund Unmatched
Disbursements,” January 30, 2007

SIGIR Report No. 06-040, “Improper Obligations Using the Iraq Relief and
Reconstruction Fund (IRRF 2),” January 30, 2007

SIGIR Report No. 06-030, “Status of Medical Equipment and Other Non-construction
Items Purchased for PHCs,” January 30, 2007

SIGIR Report No. 06-029, “Review of DynCorp International, LLC, Contract
Number S LMAQM-04-C-0030, Task Order 0338, for the Iraqi Police Training
Program Support,” January 30, 2007

SIGIR Report No. 06-039, “Review of USAID/Bechtel National, Inc., Property
Management Controls for Contract SPU-C-00-04-00001-00,” January 29, 2007

SIGIR Report No. 06-036, “Follow-up on SIGIR Recommendations Concerning the
Development Fund for Iraq (DFI),” January 29, 2007

SIGIR Report No. 06-034, “Status of the Provincial Reconstruction Team Program in
Iraq,” October 29, 2006



                                          47
SIGIR Report No. 06-033, “Iraqi Security Forces: Weapons Provided by the U.S.
Department of Defense Using the Iraq Relief and Reconstruction Fund,” October 28,
2006

SIGIR Report No. 06-032, “Iraqi Security Forces: Review of Plans to Implement
Logistics Capabilities,” October 28, 2006

SIGIR Report No. 06-031, “Management of the Iraqi Interim Government Fund,”
October 27, 2006

SIGIR Report No. 06-035, “Interim Audit Report on Inappropriate Use of
Proprietary Data Markings by the Logistics Civil Augmentation Program
(LOGCAP) Contractor,” October 26, 2006

SIGIR Report No. 06-028, “Review of Administrative Task Orders for Iraq
Reconstruction Contracts,” October 23, 2006

SIGIR Report No. 06-038, “Unclassified Summary of SIGIR’s Review of Efforts to
Increase Iraq’s Capability to Protect Its Energy Infrastructure,” September 27, 2006

SIGIR Report No. 06-037, “Interim Audit Report on Improper Obligations Using the Iraq
Relief and Reconstruction Fund (IRRF-2),” September 22, 2006

SIGIR Report No. 06-026, “Review of the U.S. Agency for International Development’s
Management of the Basrah Children’s Hospital Project,” July 28, 2006

SIGIR Report No. 06-025, “Review of the Medical Equipment Purchased for the
Primary Healthcare Centers Associated with Parsons Global Services, Inc.,
Contract Number W914NS–04–D–0006,” July 28, 2006

SIGIR Report No. 06-023, “Changes in Iraq Relief and Reconstruction Fund Program
Activities – January through March 2006,” July 28, 2006

SIGIR Report No. 06-021, “Joint Survey of the U.S. Embassy – Iraq’s Anticorruption
Program,” July 28, 2006

SIGIR Report No. 06-020, “Review of the Advanced First Responder Network,” July 28,
2006

SIGIR Report No. 06-019, “Review of the Use of Definitization Requirements for
Contracts Supporting Reconstruction in Iraq,” July 28, 2006

SIGIR Report No. 06-017, “Transition of Iraq Relief and Reconstruction Fund Projects to
the Iraqi Government,” July 28, 2006

SIGIR Report No. 06-024, “Joint Cash Count: Iraq National Weapons Card Program,”
July 26, 2006

SIGIR Report No. 06-018, “Survey of the Status of Funding for Iraq Programs
Allocated to the Department of State’s Bureau of International Narcotics and Law
Enforcement Affairs as of December 31, 2005,” July 2006




                                           48
SIGIR Report No. 06-016, “Interim Audit Report on the Review of the Equipment
Purchased for Primary Healthcare Centers Associated with Parsons Global
Services, Contract Number W914NS-04-D-0006,” April 29, 2006

SIGIR Report No. 06-011, “Management of the Primary Healthcare Centers Construction
Projects,” April 29, 2006

SIGIR Report No. 06-007, “U.S. Agency for International Development: Management of
the Transfer of Iraq Relief and Reconstruction Fund Projects to the Iraqi Government,”
April 29, 2006

SIGIR Report No. 06-006, “Multi-National Security Transition Command-Iraq:
Management of the Transfer of IRRF-funded Assets to the Iraqi Government,” April 29,
2006

SIGIR Report No. 06-015, “Iraqi Armed Forces Seized Assets Fund: Review of
Contracts and Financial Documents,” April 28, 2006

SIGIR Report No. 06-013, “Briefing to the International Advisory and Monitoring Board
for Iraq: Management Controls Over the Development Fund for Iraq,” April 28, 2006

SIGIR Report No. 06-012, “Development Fund for Iraq Cash Accountability Review:
Joint Area Support Group-Central/Falluja,” April 28, 2006

 SIGIR Report No. 06-010, “Review of the Multi-National Security Transition
Command-Iraq Reconciliation of the Iraqi Armed Forces Seized Assets Fund,” April 28,
2006

SIGIR Report No. 06-009, “Review of Task Force Shield Programs,” April 28, 2006

SIGIR Report No. 06-008, “Development Fund for Iraq-Cash Accountability Review:
Joint Area Support Group-Central,” April 28, 2006

SIGIR Report No. 06-005, “Follow-up on Recommendations Made in SIGIR Audit
Reports Related to Management and Control of the Development Fund for Iraq,” April
28, 2006

SIGIR Report No. 06-004, “Changes in Iraq Relief and Reconstruction Fund Program
Activities-October through December 2005,” April 28, 2006

SIGIR Report No. 06-003, “Review of Data Entry and General Controls in the Collecting
and Reporting of the Iraq Relief and Reconstruction Fund,” April 28, 2006

SIGIR Report No. 06-001, “Management of Iraq Relief and Reconstruction Fund
Program: The Evolution of the Iraq Reconstruction Management System,” April 24, 2006

SIGIR Report No. 06-002, “Prompt Payment Act: Analysis of Expenditures Made From
the Iraq Relief and Reconstruction Fund,” February 3, 2006

SIGIR Report No. 05-027, “Methodologies for Reporting Cost-to-complete Estimates,”
January 27, 2006




                                          49
SIGIR Report No. 05-026, “Issues Related to the Use of $50 Million Appropriation to
Support the Management and Reporting of the Iraq Relief and Reconstruction Fund,”
January 27, 2006

SIGIR Report No. 05-029, “Challenges Faced in Carrying Out Iraq Relief and
Reconstruction Fund Activities,” January 26, 2006

SIGIR Report No. 05-028, “GRD-PCO Management of the Transfer of IRRF-funded
Assets to the Government of Iraq 05-028,” January 23, 2006

SIGIR Report No. 05-025, “Management of the Commander’s Emergency Response
Program for Fiscal Year 2005,” January 23, 2006

SIGIR Report No. 05-024, “Management of the Mansuria Electrical Reconstruction
Project,” January 23, 2006

SIGIR Report No. 05-023, “Management of Rapid Regional Response Program
Contracts in South-Central Iraq,” January 23, 2006

SIGIR Report No. 05-020, “Management of the Contracts, Grant, and Micro-Purchases
Used To Rehabilitate the Karbala Library,” October 26, 2005

SIGIR Report No. 05-016, “Management of the Contracts and Grants Used To Construct
and Operate the Babylon Police Academy,” October 26, 2005

SIGIR Report No. 05-015, “Management of Rapid Regional Response Program Grants in
South-Central Iraq,” October 26, 2005

SIGIR Report No. 05-017, “Award Fee Process for Contractors Involved in Iraq
Reconstruction,” October 25, 2005

SIGIR Report No. 05-022, “Managing Sustainment for Iraq Relief and Reconstruction
Fund Programs,” October 24, 2005

SIGIR Report No. 05-021, “Management of Iraq Relief and Reconstruction Fund
Programs - Cost-to-Complete Estimate Reporting,” October 24, 2005

SIGIR Report No. 05-018, “Acquisition of Armored Vehicles Purchased Through
Contract W914NS-05-M-1189,” October 21, 2005

SIGIR Report No. 05-014, “Management of Commanders’ Emergency Response
Program for Fiscal Year 2004,” October 13, 2005

SIGIR Report No. 05-019, “Attestation Engagement Concerning the Award of Non-
Competitive Contract DACA63-03-D-0005 to Kellogg, Brown, and Root Services, Inc.,”
September 30, 2005

SIGIR Report No. 05-013, “Controls Over Equipment Acquired by Security
Contractors,” September 9, 2005

SIGIR Report No. 05-011, “Cost-to-Complete Estimates and Financial Reporting for the
Management of the Iraq Relief and Reconstruction Fund,” July 26, 2005



                                          50
SIGIR Report No. 05-010, “Interim Briefing to the Project and Contracting Office - Iraq
and the Joint Contracting Command - Iraq on the Audit of the Award Fee Process,”
July 26, 2005

SIGIR Report No. 05-012, “Policies and Procedures Used for Iraq Relief and
Reconstruction Fund Project Management Construction Quality Assurance,” July 22,
2005

SIGIR Report No. 05-009, “Reconciliation of Reporting Differences of the Source of
Funds Used on Contracts After June 28, 2004,” July 8, 2005

SIGIR Report No. 05-008, “Administration of Contracts Funded by the Development
Fund of Iraq,” April 30, 2005

SIGIR Report No. 05-007, “Administration of Iraq Relief and Reconstruction Fund
Contract Files,” April 30, 2005

SIGIR Report No. 05-006, “Control of Cash Provided to South-Central Iraq,” April 30,
2005

SIGIR Report No. 05-005, “Compliance with Contract No. W911S0-04-C-003 Awarded
to Aegis Defense Services Limited,” April 20, 2005

SIGIR Report No. 05-004, “CORRECTED - Oversight of Funds Provided to Iraqi
Ministries through the National Budget Process,” January 30, 2005

SIGIR Report No. 05-003, “Memorandum Report regarding audit of Task Order 0044 of
the Logistics Civil Augmentation Program III Contract,” November 23, 2004

SIGIR Report No. 05-002, “Accountability and Control of Materiel Assets of the
Coalition Provisional Authority in Kuwait,” October 25, 2004

SIGIR Report No. 05-001, “Coalition Provisional Authority Control of Appropriated
Funds,” October 22, 2004

SIGIR Report No. 04-008, “Coalition Provisional Authority Control Over Seized and
Vested Assets,” July 30, 2004

SIGIR Report No. 04-009, “Coalition Provisional Authority Comptroller Cash
Management Controls Over the Development Fund for Iraq,” July 28, 2004

SIGIR Report No. 04-004, “Task Orders Awarded by the Air Force Center for
Environmental Excellence in Support of the Coalition Provisional Authority,” July 28,
2004

SIGIR Report No. 04-013, “Coalition Provisional Authority’s Contracting Processes
Leading Up to and Including Contract Award,” July 27, 2004

SIGIR Report No. 04-011, “Audit of the Accountability and Control of Materiel Assets
of the Coalition Provisional Authority in Baghdad,” July 26, 2004

SIGIR Report No. 04-007, “Oil for Food Cash Controls for the Office of Project
Coordination in Erbil, Iraq,” July 26, 2004


                                           51
SIGIR Report No. 04-005, “Award of Sector Design-Build Construction Contracts,”
July 23, 2004

SIGIR Report No. 04-006, “Corporate Governance for Contractors Performing Iraq
Reconstruction Efforts,” July 21, 2004

SIGIR Report No. 04-003, “Federal Deployment Center Forward Operations at the
Kuwait Hilton,” June 25, 2004

SIGIR Report No. 04-002, “Management of Personnel Assigned to the Coalition
Provisional Authority in Baghdad, Iraq,” June 25, 2004

SIGIR Report No. 04-001, “Coalition Provisional Authority Coordination of
Donated Funds,” June 25, 2004


Government Accountability Office
GAO issued 102 reports or testimonies pertaining to Operations Enduring Freedom and
Iraqi Freedom. To obtain electronic copies of GAO reports and testimonies, please visit
http://www.gao.gov/docsearch/featured/oif.html. Where possible, hyperlinks to the
complete GAO reports are provided below. To request hardcopies of GAO reports,
please visit http://www.gao.gov/cgi-bin/ordtab.pl, or call 202-512-6000 or fax to 202-
512-6061.

GAO Report No. GAO-07-1048R, “Enemy-Initiated Attacks in Iraq,” September 28 2007

GAO Report No. GAO-07-814, “DEFENSE LOGISTICS: Army and Marine Corps
Cannot Be Assured That Equipment Reset Strategies Will Sustain Equipment
Availability While Meeting Ongoing Operational Requirements,” September 19, 2007

GAO Report No. GAO-07-1235T, “DOD CIVILIAN PERSONNEL: Medical Policies
for Deployed DOD Federal Civilians and Associated Compensation for Those Deployed,
September 18, 2007

GAO Report No. GAO-07-1195, “SECURING, STABILIZING, AND REBUILDING
IRAQ: Iraqi Government Has Not Met Most Legislative, Security, and Economic
Benchmarks,” September 4, 2007

GAO Report No. GAO-07-839, “Defense Contract Management: DoD’s Lack of
Adherence to Key Contracting Principles on Iraq Oil Contract Put Government Interests
at Risk,” July 31, 2007

GAO Report No. GAO-07-711, “STABILIZING IRAQ: DOD Cannot Ensure That U.S.-
Funded Equipment Has Reached Iraqi Security Forces,” July 31, 2007

* GAO Report No. GAO-07-853C, “Military Readiness: DoD Needs to Set Forth an
Action Plan, with Measurable Results, to Improve Army and Marine Corps Unit
Readiness,” July 20, 2007

GAO Report No. GAO-07-836, “Unmanned Aircraft Systems: Advance Coordination
and Increased Visibility Needed to Optimize Capabilities,” July 11, 2007



                                           52
GAO Report No. GAO-07-759, “Defense Acquisitions: Analysis of Processes Used to
Evaluate Active Protection Systems” June 8, 2007

GAO Report No. GAO-07-801SP, “Securing, Stabilizing, and Reconstructing
Afghanistan: Key Issues for Congressional Oversight,” May 24, 2007

GAO Report No. GAO-07-699, “Military Operations: The Department of Defense’s Use
of Solatia and Condolence Payments in Iraq and Afghanistan,” May 23, 2007

GAO Report No. GAO-07-783R, “Global War on Terrorism: reported Obligations for the
Department of Defense,” May 18, 2007

GAO Report No. GAO-07-677, “Rebuilding Iraq: Integrated Strategic Plan Needed to
Help Restore Iraq’s Oil and Electricity Sectors,” May 15, 2007

GAO Report No. GAO-07-832T, “Defense Acquisitions: Improved Management and
Oversight needed to Better Control DoD’s Acquisition of Services,” May 10, 2007

GAO Report No. GAO-07-827T, “Stabilizing And Rebuilding Iraq: Coalition Support
and International Donor Commitments,” May 9, 2007

GAO Report No. GAO-07-906R, “GAO Findings and Recommendations Regarding DoD
and VA Disability Systems,” May 5, 2007

GAO Report No. GAO-07-662R, “Defense Logistics: Army and Marine Corps’s
Individual Body Armor System Issues,” April 26, 2007

GAO Report No. GAO-07-525T, “Stabilizing And Rebuilding Iraq: Conditions in Iraq
Are Conducive to Fraud, Waste and Abuse,” April 23, 2007

* GAO Report No. GAO-07-377C, “Defense Management: A Strategic Plan Is Needed to
Guide the Joint Improvised Explosive Device Defeat Organization’s Efforts to
Effectively Accomplish Its Mission,” March 28, 2007

GAO Report No. GAO-07-639T, “Operation Iraqi Freedom: DoD Should Apply Lessons
Learned Concerning the Need for Security Over Conventional Munitions Storage Sites to
Future Operations Planning,” March 22, 2007

GAO Report No. GAO-07-637T, “Stabilizing Iraq: Preliminary Observations on Budget
and Management Challenges of Iraq’s Security Ministries,” March 22, 2007

GAO Report No. GAO-07-444, “Operation Iraqi Freedom: DoD Should Apply Lessons
Learned Concerning the Need for Security over Conventional Munitions Storage Sites to
Future Operations Planning,” March 22, 2006

GAO Report No. GAO-07-612T, “Stabilizing Iraq: Factors Impeding the Development of
Capable Iraqi Security Forces,” March 13, 2007

GAO Report No. GAO-07-582T, “Operation Iraqi Freedom: Preliminary Observations on
Iraqi Security Forces’ Logistical Capabilities,” March 9, 2007

* GAO Report No. GAO-07-120C, “Operation Iraqi Freedom: Preliminary Observations
on Iraqi Security Forces’ Support Capabilities,” March 7, 2007


                                         53
GAO Report No. GAO-07-426T, “Rebuilding Iraq: Reconstruction Progress Hindered by
Contracting, Security, and Capacity Challenges,” February 15, 2007

GAO Report No. GAO-07-144, “Defense Logistics: Improved Oversight and Increased
Coordination needed to Ensure Viability of the Army’s Prepositioning Strategy,”
February 15, 2007

GAO Report No. GAO-07-439T, “Defense Logistics: Preliminary Observations on the
Army’s Implementation of Its Equipment Reset Strategies,” January 31, 2007

GAO Report No. GAO-07-385T, “Securing, Stabilizing, And Rebuilding Iraq: GAO
Audit Approach and Findings,” January 18, 2007

GAO Report No. GAO-07-308SP, “Securing Stabilizing, And Rebuilding Iraq: Key
Issues for Congressional Oversight,” January 9, 2007

* GAO Report No. GAO-07-71C, “Operation Iraqi Freedom: DoD Should Apply
Lessons Learned Concerning the Need for Security Over Conventional Munitions
Storage Sites to Future Operations Planning,” December 20, 2006

GAO Report No. GAO-07-145, “Military Operations: High-Level DoD Action needed to
Address Long-standing Problems with Management and Oversight of Contractors
Supporting Deployed Forces,” December 18, 2006

GAO Report No. GAO-07-30R, “Rebuilding Iraq-Status of DoD’s Reconstruction
Program,” December 15, 2006

GAO Report No. GAO-07-78, “Afghanistan Drug Control: Despite Improved Efforts,
Deterioration Security Threatens Success of U.S. Goals,” November 15, 2006

GAO Report No. GAO-07-76, “Global War On Terrorism: Fiscal Year 2006 Obligation
Rates Are Within Funding Levels and Significant Multiyear Procurement Funds Will
Likely Remain Available for Use in Fiscal year 2007,” November 13, 2006

GAO Report No. GAO-07-40, “Rebuilding Iraq: Status of Competition for Iraq
Reconstruction Contracts,” October 6, 2006

GAO Report No. GAO-06-1085, “DoD Civilian Personnel: Greater Oversight and
Quality Assurance Needed to Ensure Force Health Protection and Surveillance for Those
Deployed,” September 29, 2006

GAO Report No. GAO-06-1130T, “Rebuilding Iraq: Continued Progress Requires
Overcoming Contract Management Challenges,” September 28, 2006

GAO Report No. GAO-06-1132, “Iraq Contract Costs: DoD Consideration of Defense
Contract Audit Agency’s Findings,” September 25, 2006

GAO Report No. GAO-06-1094T, “Stabilizing Iraq: An Assessment of the Security
Situation,” September 11, 2006

GAO Report No. GAO-06-928R, “Defense Logistics: Changes to Stryker Vehicle
Maintenance Support Should Identify Strategies for Addressing Implementation
Challenges,” September 5, 2006


                                         54
* GAO Report No. GAO-06-673C, “Briefing on Iraq Stabilization,” July 27, 2006

GAO Report No. GAO-06-885T, “Global War On Terrorism: Observations on Funding,
Costs, and Future Commitments,” July 18, 2006

GAO Report No. GAO-06-953T, “Rebuilding Iraq: More Comprehensive National
Strategy Needed to help Achieve U.S. Goals and Overcome Challenges,” July 11, 2006

GAO Report No. GAO-06-788, “Rebuilding Iraq: More Comprehensive National
Strategy Needed to Help Achieve U.S. Goals,” July 11, 2006

GAO Report No. GAO-06-274, “Defense Logistics: Lack of Synchronized Approach
between the Marine Corps and Army Affected the Timely Production and Installation of
Marine Corps Truck Armor,” June 22, 2006

GAO Report No. GAO-06-865T, “Rebuilding Iraq: Actions Still Needed to Improve the
Use of Private Security Providers,” June 13, 2006

GAO Report No. GAO-06-397, “Post-Traumatic Stress Disorder: DoD Needs to
Identify the Factors Its Providers Use to make Mental Health Evaluation Referrals for
Service Members,” May 11, 2006

GAO Report No. GAO-06-711T, “United Nations: Oil for Food Program Provides
lessons for Future Sanctions and Ongoing Reform,” May 2, 2006

GAO Report No. GAO-06-697T, “Rebuilding Iraq: Governance, Security,
Reconstruction, and Financing Challenges,” April 25, 2006

GAO Report No. GAO-06-330, “United Nations: Lessons Learned from Oil for Food
Program Indicate the Need to Strengthen UN Internal Controls and Oversight Activities,”
April 25, 2006

GAO Report No. GAO-06-604T, “Defense Logistics: Preliminary Observations on
Equipment Reset Challenges and Issues for the Army and Marine Corps,”
March 30, 2006

GAO Report No. GAO-06-160, “Defense Logistics: Several Factors Limited the
Production and Installation of Army Truck Armor during Current Wartime Operations,”
March 22, 2006

GAO Report No. GAO-06-428T, “Rebuilding Iraq: Stabilization, Reconstruction, and
Financing Challenges,” February 8, 2006

GAO Report No. GAO-06-134, “Military Personnel: DoD Needs Action Plan to Address
Enlisted Personnel Recruitment and Retention Challenges,” November 17, 2005

* GAO Report No. GAO-06-217C, “Rebuilding Iraq: DoD reports Should Link
Economic, Governance, and Security Indicators to Conditions for Stabilizing Iraq,”
October 31, 2005

* GAO Report No. GAO-06-152C, “Rebuilding Iraq: DoD Reports Should Link
Economic, Governance, and Security Indicators to Conditions for Stabilizing Iraq,”
October 31, 2005


                                           55
GAO Report No. GAO-06-179T, “Rebuilding Iraq: Enhancing Security, Measuring
Program Results, and Maintaining Infrastructure Are Necessary to Make Significant and
Sustainable Progress,” October 18, 2005

GAO Report No. GAO-05-819, “Defense Transportation: Air Mobility Command Needs
to Collect and Analyze Better Data to Assess Aircraft Utilization,” September 29, 2005

GAO Report No. GAO-05-882, “Global War On Terrorism: DoD Needs to Improve the
Reliability of Cost Data and Provide Additional Guidance to Control Costs,”
September 21, 2005

GAO Report No. GAO-05-932R, “Rebuilding Iraq: U.S. Assistance for the January 2005
Elections,” September 7, 2005

GAO Report No. GAO-05-872, “Rebuilding Iraq: U.S. Water and Sanitation Efforts
Need Improved Measures for Assessing Impact and Sustained Resources for Maintaining
Facilities,” September 7, 2005

GAO Report No. GAO-05-672, “Radiological Sources In Iraq: DoD Should Evaluate its
Source Recovery Effort and Apply Lessons Learned to Future Recovery Missions,”
September 7, 2005

GAO Report No. GAO-05-775, “Defense Logistics: DoD Has Begun to Improve Supply
Distribution Operations, but Further Actions Are Needed to Sustain These Efforts,”
August 11, 2005

GAO Report No. GAO-05-876, “Rebuilding Iraq: Status of Funding and Reconstruction
Efforts,” July 28, 2005

GAO Report No. GAO-05-742, “Afghanistan Reconstruction: Despite Some Progress,
Deterioration Security and Other Obstacles Continue to Threaten Achievement of U.S.
Goals,” July 28, 2005

GAO Report No. GAO-05-737, “Rebuilding Iraq: Actions needed to Improve Use of
Private Security Providers,” July 28, 2005

GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
Police Have Made Progress, but Future Plans need to be Better Defined,” June 30, 2005

GAO Report No. GAO-05-293, “Defense Management: Processes to Estimate and Track
Equipment Reconstitution Costs Can Be Improved,” May 5, 2005

GAO Report No. GAO-05-280R, “Defense Base Act Insurance: Review Needed of Cost
and Implementation Issues,” April 29, 2005

GAO Report No. GAO-05-201, “Interagency Contraction: Problems with DoD’s and
Interior’s Orders to Support Military Operations,” April 29, 2005

GAO Report No. GAO-05-275, “Defense Logistics: Actions Needed to Improve the
Availability of Critical Items during Current and Future Operations,” April 8, 2005

GAO Report No. GAO-05-328, “Defense Logistics: High-Level DoD Coordination Is
Needed to Further Improve the Management of the Army’s LOGCAP Contract,”
March 21, 2005

                                           56
GAO Report No. GAO-05-431T, “Rebuilding Iraq: Preliminary Observations on
Challenges in Transferring Security Responsibilities to Iraqi Military and Police,”
March 14, 2005

GAO Report No. GAO-05-392T, “United Nations: Sustained Oversight Is Needed for
Reforms to Achieve Lasting Results,” March 2, 2005

GAO Report No. GAO-05-125, “Military Pay: Gaps in Pay and Benefits Create Financial
hardships for Injured Army National Guard and Reserve Soldiers,” February 17, 2005

GAO Report No. GAO-05-346T, “United Nations: Oil for Food Program Audits,”
February 15, 2005

GAO Report No. GAO-05-79, “Army National Guard: Inefficient, Error-Prone Process
Results in Travel Reimbursement Problems for Mobilized Soldiers,” January 31, 2005

GAO Report No. GAO-05-120, “Defense Health Care: Force Health Protection and
Surveillance Policy Compliance Was Mixed, but Appears Better for Recent
Deployments,” November 12, 2004

GAO Report No. GAO-04-1031, “Military Personnel: DoD Needs to Address Long-term
Reserve Force Availability and Related Mobilization and Demobilization Issues,”
September 15, 2004

GAO Report No. GAO-04-1006, “Foreign Regimes’ Assets: The United States Faces
Challenges in Recovering Assets, but Has Mechanisms That Could Guide Future
Efforts,” September 14, 2004

GAO Report No. GAO-04-915, “Military Operations: Fiscal Year 2004 Costs for the
Global War on Terrorism Will Exceed Supplemental, Requiring DoD to Shift Funds from
Other Uses,” July 21, 2004

GAO Report No. GAO-04-854, “Military Operations: DoD’s Extensive Use of Logistics
Support Contracts Requires Strengthened Oversight,” July 19, 2004

GAO Report No. GAO-04-609, “Defense Infrastructure: Factors Affecting U.S.
Infrastructure Costs Overseas and the Development of Comprehensive Master Plans,”
July 15, 2004

GAO Report No. GAO-04-953T, “United Nations: Observations on the Oil for Food
Program and Areas for Further Investigation,” July 8, 2004

GAO Report No. GAO-04-902R, “Rebuilding Iraq: Resource, Security, Governance,
Essential, Services, and Oversight Issues,” June 28, 2004

GAO Report No. GAO-04-880T, “United Nations: Observations on the Oil for Food
Program and Iraq’s Food Security,” June 16, 2004

GAO Report No. GAO-04-869T, “Contract Management: Contracting for Iraq
Reconstruction and for Global Logistics Support,” June 15, 2004

GAO Report No. GAO-04-403, “Afghanistan Reconstructions: Deteriorating Security
and Limited Resources Have Impeded Progress; Improvements in U.S. Strategy Needed,”
June 2, 2004

                                            57
GAO Report No. GAO-04-605, “Rebuilding Iraq: Fiscal Year 2003 Contract Award
Procedures and Management Challenges,” June 1, 2004

GAO Report No. GAO-04-746R, “Iraq’s Transitional Law,” May 25, 2004

GAO Report No. GAO-04-668, “Military Operations: DoD’s Fiscal Year 2003 Funding
and reported Obligations in Support of the Global War on Terrorism,” May 13, 2004

GAO Report No. GAO-04-559, “State Department: Issues Affecting Funding of Iraqi
National Congress Support Foundation,” April 30, 2004

GAO Report No. GAO-04-730T, “United Nations: Observations on the Management and
Oversight of the Oil for Food Program,” April 28, 2004

GAO Report No. GAO-04-484, “Operation Iraqi Freedom: Long-standing Problems
Hampering Mail Delivery need to be Resolved,” April 14, 2004

GAO Report No. GAO-04-651T, “United Nations: Observations on the Oil for Food
Program,” April 7, 2004

GAO Report No. GAO-04-562T, “Military Propositioning Observations on Army and
Marine Corps Programs During Operation Iraqi Freedom and Beyond,” March 24, 2004

GAO Report No. GAO-04-579T, “Recovering Iraq’s Assets: Preliminary Observations
on U.S. Efforts and Challenges,” March 18, 2004

GAO Report No. GAO-04-305R, “Defense Logistics: Preliminary Observations on the
Effectiveness of Logistics Activities during Operation Iraqi Freedom,” December 18,
2003

GAO Report No. GAO-03-1088, “Military Operations: Fiscal Year 2003 Obligations Are
Substantial, but May Result in Less Obligations Than Expected,” September 17, 2003

GAO Report No. GAO-03-980T, “Foreign Assistance: Observations on Post-Conflict
Assistance in Bosnia, Kosovo, and Afghanistan,” July 18, 2003

GAO Report No. GAO-03-792R, “Rebuilding Iraq,” May 15, 2003




                                         58
Appendix C. Definitions Used for
Categorization of OEF and OIF Reports and
Testimonies FY 2003 through FY 2007
To categorize the 302 OEF and OIF reports and testimonies, we developed definitions to
categorize the causes that resulted in the recommendations issued by the Defense
oversight community and GAO. We provided our definitions to the other oversight
agencies when we vetted our initial categorizations. Our goal was to create categories
and definitions that were simple and easily understood to provide common reference
points as follows:

Contract Management
• Administration: This category includes recommendations that address oversight
  responsibilities, including Quality Assurance, Performance Monitoring, and Results,
  to ensure that the contractor provides the requirements requested. We consider this
  category as Government specific function.
• Policy and Procedure: This category includes recommendations that address
  implementing guidance, policy, and procedures for future contracts and is not limited
  to one specific contract.
• Sourcing: This category includes recommendations that address improving the
  negotiation and documentation of actions between the Government (customer) and
  the contractor (developer). This function involves both Government and contractor.
• Requirements: This category includes recommendations that address the
  development of requirements (what is needed by the customer). This function is
  Government specific with no contractor involvement in developing the requirements.
• Other: This category includes recommendations that are more general and address a
  more strategic approach to resolving systemic challenges.

Logistics
• Policy and Procedures: This category includes the recommendations made to
   improve the general goals and directives of a program, process, or plan including the
   steps, activities, and decisions made to accomplish those goals and directives.
• Accountability: This category includes recommendations made to improve
   establishing or maintaining records to identify, acquire, account for, control, store, or
   properly dispose of assets; including whether the cause addressed equipment on hand
   or on order, the status of the equipment, and the location of the equipment.
• Sustainability: This category includes recommendations to ensure maintaining a
   certain level or state of a process, program, or activity. It includes what needs to be
   done in order to keep a process, program, or activity running smoothly and
   efficiently.
• Requirements: This category includes recommendations made in order to improve
   determining the needs or conditions to meet a specific outcome. This includes
   required equipment, storage facilities, supplies, and personnel.
• Other: This category includes causes categorized as Other. (1) The causes do not
   specifically relate to Policy and Procedures, Accountability, Sustainability, or

                                             59
   Requirements. (2) Many of the causes were very specific to a certain program and
   could not be applied to any other program. (3) Some of the recommendations were
   not tied to a specific cause, so those recommendations were categorized as Other.

Financial Management
• Overall Financial Management: This category includes overall financial
   management. The cause addressed by the recommendation covers the category of
   financial management but the cause was not specific enough to be classified in one of
   the other categories.
• Internal Controls: This category addresses anything that could involve the lack of
   checks and balances in the system. The Yellow Book describes internal controls as
   “The extent to which internal controls that are significant to the audit depend on the
   reliability of information processed or generated by information systems.” We used
   this Yellow Book definition to guide our judgment.
• Obligations: This category addresses a cause that is directly related to obligations or
   involved obligation type challenges, for example, if a report spoke about command
   not doing a sufficient job of planning for a known expenditure. We considered
   information from the DoD Comptrollers office as it pertained to the Planning,
   Programming, Budgeting, and Execution system. In particular, the Budgeting phase
   (formulation and justification) as it provides a platform for a detailed review of a
   program’s pricing, phasing, and overall capability to be executed on time and within
   budget. The budgeting process addresses the years to be justified in the President’s
   budget (including the current and upcoming execution years) and provides a forum to
   develop the Secretary’s budget position.
• Execution: This category addresses the execution phase and everything involved
   with the actual spending of funds.

Other
• Policy and Procedures: This category addresses a cause related to general goals and
   directives of a program, process, or plan including the steps, activities, and decisions
   made to accomplish those goals and directives.
• Planning: This category includes a cause if it addressed providing a framework for
   developing anything; including processes for setting goals, developing strategies, and
   outlining tasks and schedules to accomplish a goal.
• Accountability: This category includes a cause that addressed establishing or
   maintaining records to identify, acquire, account for, control, store, or properly
   dispose of assets; including if the cause talked about equipment on hand or on order,
   the status of the equipment, and the location of the equipment.
• Other: This category includes causes that do not specifically relate to policy and
   procedures, planning, or accountability and causes that were very specific to a certain
   program and could not be applied to any other program.




                                            60
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing
prepared this report. The following personnel of the Department of Defense Office of
Inspector General significantly contributed to this report:

Joseph S. Dobish
Michael J. Guagliano
Cathy M. Mitchell
William G. Vannurden

Additional contributors within the DoD OIG were:

Jack L. Armstrong
Donald. A. Bloomer
Bruce A. Burton
Erin S.-E. Hart
James L. Kornides
Andrew L. McRell
Craig W. Michaels
Timothy E. Moore
Monica Noell
David K. Steensma
Richard B. Vasquez

Members from Southwest Asia Joint Planning Group also contributed to this summary
report:

Mr. J.T. Mickey McDermott, Chair – Joint Planning Group, Southwest Asia/GWOT
Mr. Joseph P. Mizzoni, U.S. Army Audit Agency
Mr. John D. Lombardo, U.S. Army Audit Agency
Mr. James Durbin, Naval Audit Service
Mr. Charles E. Atkinson, Jr., U.S. Air Force Audit Agency
Mr. Joe Garcia, Defense Contract Audit Agency
Mr. Greg Schmalfeldt, Defense Finance and Accounting Service
